No. ________
IN THE

Supreme Court of the United States
PUBLISHERS BUSINESS SERVICES, INC., ED
DANTUMA ENTERPRISES, INC., EDWARD
DANTUMA, DRIES DANTUMA, DIRK DANTUMA,
JEFF DANTUMA, and BRENDA SCHANG,
v.

Petitioners,

FEDERAL TRADE COMMISSION,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
PETER W. HOMER
Counsel of record
CHRISTOPHER J. KING
HOWARD S. GOLDFARB
HOMER BONNER JACOBS
1200 Four Seasons Tower
1441 Brickell Avenue
Miami, Florida 33131
(305) 350-5100
phomer@homerbonner.com
Attorneys for Petitioners

i
QUESTIONS PRESENTED
Two months ago the Seventh Circuit split with
eight circuits over a crucial issue that has transformed
Federal Trade Commission (“FTC”) enforcement
actions. The court held the plain text of the FTC Act’s
injunction statute, § 13(b), excludes implied remedies
for monetary relief. FTC v. Credit Bureau Ctr., LLC,
937 F.3d 764, 767 (7th Cir. 2019).
The Credit Bureau decision openly acknowledged
the circuit split it caused. All other circuits to address
the issue read § 13(b)’s specifically delineated
remedies of forward-looking injunctions as implicit
authorization to award equitable monetary relief.
Though supposedly grounded in the courts’ inherent
equity powers, these monetary awards have proved to
be exceedingly punitive, almost unlimited in amount,
often imposed jointly and severally, and untethered to
procedures, notions of proximate causation, and
limitations Congress required elsewhere in the FTC
Act. In this case, the Ninth Circuit affirmed a joint
and several disgorgement award of almost $24
million, though the individual Petitioners received
only a minute fraction of that amount. In a companion
FTC action argued and decided by the Ninth Circuit
with this case, FTC v. AMG Capital Mgt., et al., 1617197 (9th Cir.), the joint and several award was
nearly $1.3 billion. App., infra, 8a.
The questions presented are:
1) Whether a district court can award monetary
relief under § 13(b) of the FTC Act, consistent with
separation-of-powers principles; and
2) Whether a monetary disgorgement award
under § 13(b) of the FTC Act is a penalty and therefore
outside a district court’s inherent equity powers.

ii
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
The Petitioners are Publishers Business Services,
Inc., Ed Dantuma Enterprises, Inc., Dries Dantuma,
Dirk Dantuma, Jeff Dantuma, Brenda Schang, and
Edward Dantuma (deceased), who were defendants in
the district court proceedings and appellants in the
Ninth Circuit appeal. The Respondent is the Federal
Trade Commission, the plaintiff in the district court
proceeding and the appellee in the Ninth Circuit
appeal.
Publishers Business Services, Inc. and Ed
Dantuma Enterprises, Inc. have no parent company,
and no publicly held company owns 10% or more of
their stock.

iii
LIST OF DIRECTLY RELATED PROCEEDINGS
1.

Publishers Bus. Services, Inc., et al. v. FTC, No.
N19A255 (U.S.) (application for extension of
time to file petition for certiorari, granted
September 5, 2019)

2.

FTC v. Dirk Dantuma, et al., No. 17-15600 (9th
Cir.) (judgment entered August 31, 2018)

3.

FTC v. Publishers Bus. Services, Inc., No. 2:08cv-00620-APG-GWF (D. Nev.) (judgment
entered on remand February 2, 2017)

4.

Publishers Bus. Services, Inc., et al. v. FTC, No.
13-1405 (U.S.) (petition for certiorari, denied
June 9, 2014)

5.

FTC v. Publishers Bus. Services, Inc., et al., No.
11-17270 (9th Cir.) (judgment entered
September 19, 2013, vacating original district
court judgment)

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING AND RULE 29.6
STATEMENT ......................................................... ii
LIST OF DIRECTLY RELATED PROCEEDINGS .. iii
TABLE OF CONTENTS ............................................ iv
TABLE OF AUTHORITIES ..................................... vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
STATUTORY PROVISIONS INVOLVED ................. 1
STATEMENT OF THE CASE.................................... 2
A. The path to court-made implied remedies
under § 13(b)...................................................... 5
B. Factual and procedural background............... 10
REASONS FOR GRANTING THE PETITION ....... 13
I.

The decision below presents an acknowledged,
direct circuit split. ........................................... 13

II. The circuit split raises fundamental
separation-of-powers issues. ........................... 15
III. The decision below conflicts with this Court’s
decision in Kokesh. .......................................... 20
IV. The decision below is wrong. .......................... 25
CONCLUSION.......................................................... 28

v
APPENDIX
Appendix A
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit, FTC
v. Dirk Dantuma, et al., 17-15600 (August
31, 2018) ............................................................. 1a
Appendix B
Opinion of the United States Court of
Appeals for the Ninth Circuit, FTC v. AMG
Capital Mgt., LLC, et al., 16-17197
(December 3, 2018) ............................................ 8a
Appendix C
Order of the United States District Court
for the District of Nevada Granting Motion
for Judgment, FTC v. Publishers Bus.
Services, Inc., 2:08-cv-00620-APG-GWF
(February 1, 2017) ............................................. 45a
Appendix D
Order of the United States Court of Appeals
for the Ninth Circuit denying petition for
panel rehearing and petition for rehearing
en banc, FTC v. Dirk Dantuma, et al., 1715600 (June 19, 2019) ....................................... 63a
Appendix E
Order of the United States Court of Appeals
for the Ninth Circuit denying petition for
rehearing en banc, FTC v. AMG Capital
Mgt., LLC, et al., 16-17197 (June 20, 2019) ..... 64a

vi
Appendix F
Constitutional and Statutory Provisions
Involved.............................................................. 65a
§ 13 of the FTC Act (15 U.S.C. §53) .............. 65a
§ 19 of the FTC Act (15 U.S.C. § 57b) ........... 67a
§ 5 of the FTC Act (15 U.S.C. § 45) ............... 70a

vii
TABLE OF AUTHORITIES
Cases
Adams v. Woods,
6 U.S. 336 (1805) ................................................... 26
FTC v. Amy Travel Serv., Inc.,
875 F.2d 564 (7th Cir. 1989) ............................. 9, 13
FTC v. Bronson Partners, LLC,
654 F.3d 359 (2d Cir. 2011) ..................................... 9
FTC v. Brown Shoe Co.,
384 U.S. 316 (1966).................................................. 5
FTC v. Commerce Planet, Inc.,
815 F.3d 593 (9th Cir. 2016) ................... 3, 9, 15, 20
FTC v. Credit Bureau Ctr., LLC,
937 F.3d 764 (7th Cir. 2019) .................. i, 10, 13, 25
FTC v. Direct Mktg. Concepts, Inc.,
624 F.3d 1 (1st Cir. 2010) ........................................ 9
FTC v. Elders Grain, Inc.,
868 F.2d 901 (7th Cir. 1989) ....................... 9, 13, 16
FTC v. Freecom Commc’ns, Inc.,
401 F.3d 1192 (10th Cir. 2005) ............................... 9
FTC v. Gem Merch. Corp.,
87 F.3d 466 (11th Cir. 1996) ................................... 9
FTC v. Gratz,
253 U.S. 421 (1920).................................................. 5
FTC v. H. N. Singer, Inc.,
668 F.2d 1107 (9th Cir. 1982) ..................... 8, 13, 16
FTC v. Magazine Sols., LLC,
432 F. App’x 155 (3d Cir. 2011)......................... 9, 15

viii
FTC v. Publishers Bus. Services, Inc.,
08-CV-00620, 2011 WL 7462205 (D. Nev. July 25,
2011) ....................................................................... 10
FTC v. Publishers Bus. Services, Inc.,
540 F. App’x 555 (9th Cir. 2013) ........... 4, 11, 18, 21
FTC v. Publishers Bus. Services, Inc.,
821 F. Supp. 2d 1205 (D. Nev. 2010) .................... 10
FTC v. Ross,
743 F.3d 886 (4th Cir. 2014) ................................... 9
FTC v. Sec. Rare Coin & Bullion Corp.,
931 F.2d 1312 (8th Cir. 1991) ................................. 9
FTC v. Shire ViroPharma, Inc.,
917 F.3d 147 (3d Cir. 2019) ............................. 14, 18
FTC v. Sw. Sunsites, Inc.,
665 F.2d 711 (5th Cir. 1982) ............................... 7, 8
FTC v. Weyerhaeuser Co.,
665 F.2d 1072 (D.C. Cir. 1981).............................. 14
Great–W. Life & Annuity Ins. Co. v. Knudson,
534 U.S. 204 (2002)................................................ 28
Heater v. FTC,
503 F.2d 321 (9th Cir. 1974) ................................... 6
Hecht Co. v. Bowles,
321 U.S. 321 (1944).......................................... 20, 24
Honeycutt v. U.S.,
137 S. Ct. 1626 (2017) ........................................... 27
I.N.S. v. Chadha,
462 U.S. 919 (1983)................................................ 18
Meghrig v. KFC Western, Inc.,
516 U.S. 479 (1996).................................. 2, 3, 10, 27

ix
Mertens v. Hewitt Assocs.,
508 U.S. 248 (1993)................................................ 20
Mitchell v. Robert DeMario Jewelry, Inc.,
361 U.S. 288 (1960).................................. 2, 8, 10, 13
O’Shea v. Littleton,
414 U.S. 488 (1974)................................................ 26
Osborn v. Griffin,
865 F. 3d 417 (6th Cir. 2017) ................................ 22
Porter v. Warner Holding Co.,
328 U.S. 395 (1946).................................. 2, 8, 10, 13
Saad v. S.E.C.,
873 F. 3d 297 (D.C. Cir. 2017)............................... 22
Sandoz Inc. v. Amgen Inc.,
137 S. Ct. 1664 (2017) ........................................... 27
SEC Gentile,
18-1242, 2019 WL 4686251 (3d Cir. Sept. 26, 2019)
.......................................................................... 22, 25
Tull v. U.S.,
481 U.S. 412 (1987).......................................... 20, 24
Ziglar v. Abbasi,
137 S. Ct. 1843 (2017) ......................... 16, 19, 27, 28
Statutes
§ 13 of the FTC Act (15 U.S.C. § 53) .................passim
§ 19 of the FTC Act (15 U.S.C. § 57b) ...............passim
§ 5 of the FTC Act (15 U.S.C. § 45) .................. 1, 7, 10
28 U.S.C. § 1254(1) ..................................................... 1
28 U.S.C. § 1291 ........................................................ 11
28 U.S.C. § 2462 .................................................passim

x
Other Authorities
Chad M. Clamage, Esq., Supreme Court’s SEC
Decision Could Limit Other Federal Agencies, 33
No. 1 Westlaw J. Corp. Officers & Directors
Liability 1, 2017 WL 2935836 (July 10, 2017)...... 25
Colleen P. Murphy, Misclassifying Monetary
Restitution, 55 SMU L. Rev. 1577 (2002) ............. 22
Dan B. Dobbs & Caprice L. Roberts, Law of Remedies
§ 4.3, at 397 (3d ed. 2018)...................................... 20
David M. FitzGerald, The Genesis of Consumer
Protection Remedies Under Section 13(b) of the
FTC Act, at 12 (Sept. 23, 2004), available at
https://www.ftc.gov/sites/default/files/documents/
public_events/FTC%2090th%20Anniversary%20Sy
mposium/fitzgeraldremedies.pdf (last visited Oct.
15, 2019) ................................................................... 7
FTC 2016 Annual Highlight Report,
https://www.ftc.gov/node/1205233 (last visited
October 15, 2019) ................................................... 16
FTC 2017 Annual Highlight Report,
https://www.ftc.gov/reports/annual-highlights2017/stats-and-data (last visited Oct. 15, 2019) ... 16
FTC 2018 Annual Highlight Report,
https://www.ftc.gov/reports/annual-highlights2018/stats-and-data (last visited Oct. 15, 2019) ... 15
Oral Arg. Tr., SEC v. Kokesh, No. 16-529, 2017 WL
1399509 (U.S. April 18, 2017) ............................... 24
Peter Ward, Restitution for Consumers Under the
Federal Trade Commission Act: Good Intentions or
Congressional Intentions, 41 AM. U. L. REV. 1139
(1992)........................................................................ 7
S. Rep. No. 93-151 (1973) ........................................... 6

xi
Wheeler-Lea Act of 1938, ch. 49, 52 Stat. 111 ........... 6
Regulations
16 C.F.R. § 310 .......................................................... 10

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Publishers Business Services, Inc.,
Ed Dantuma Enterprises, Inc., Edward Dantuma
(deceased), Dries Dantuma, Dirk Dantuma, Jeff
Dantuma, and Brenda Schang (collectively “PBS”)
petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Ninth
Circuit.
OPINIONS BELOW
The opinion of the court of appeals, App., infra, 1a7a, is unreported but available at 748 F. App’x 735.
The decision of the court of appeals in the companion
AMG decision, argued on the same day as this case
and decided by the same panel, App., infra, 8a-44a, is
reported at 910 F.3d 417. The Ninth Circuit’s order
denying panel rehearing and rehearing en banc, App.,
infra, 63a, is unreported. The district court order
granting judgment for the FTC, App., infra, 45a-62a,
is unreported but available at 2017 WL 451953.
JURISDICTION
The Ninth Circuit issued its judgment affirming
the district court’s final judgment on August 31, 2018.
The Ninth Circuit denied PBS’s timely petition for
panel rehearing and rehearing en banc on June 19,
2019. On September 5, 2019, Justice Kagan extended
the time within which to file a petition for a writ of
certiorari to and including October 18, 2019.
Publishers Bus. Services v. FTC, No. 19A255. This
Court has jurisdiction over the Ninth Circuit’s
judgment pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Sections 13, 19, and 5 of the FTC Act are
reproduced in Appendix F, infra, 65a-81a.

2
STATEMENT OF THE CASE
Since 1982, federal courts have at the urging of
FTC enforcement staff recognized implied remedies,
including monetary relief, under the FTC Act’s
injunction statute, § 13(b). That statute speaks of only
a single remedy—an injunction to stop an ongoing or
imminent violation of the FTC Act. However, relying
on this Court’s 1946 decision in Porter v. Warner
Holding Co., 328 U.S. 395 (1946), the FTC claimed
authority to request additional implied monetary and
other remedies. Porter held that a district court’s full
equity powers are available unless Congress
specifically excludes them. Id. at 397-98. This Court
applied that reasoning to the Fair Labor Standards
Act in Mitchell v. Robert DeMario Jewelry, Inc., 361
U.S. 288, 291 (1960), and circuit decisions, at the
FTC’s urging, extended the reasoning to § 13(b) of the
FTC Act.
Skepticism brewed over these decisions from the
beginning, for good reason. The plain text of § 13(b)
limits remedies to injunctions and restraining orders
to prevent ongoing or imminent violations of the Act.
The statute says nothing about monetary relief or
reserved equity powers. The FTC Act provides those
remedies in a different statute, § 19, together with
detailed procedural requirements and a 3-year
limitations period conspicuously missing from § 13(b).
Moreover, the principle courts drew from Porter
and Mitchell, that implied equitable remedies may be
added to what Congress provided expressly in an
elaborate statutory scheme, was abrogated by this
Court’s decision in Meghrig v. KFC Western, Inc., 516
U.S. 479 (1996). Meghrig reversed the presumption—
courts are not to assume a statute with “elaborate
enforcement provisions” implicitly authorizes other

3
remedies. See id. at 487. This Court’s decision in
Kokesh v. Securities and Exchange Commission, 137
S. Ct. 1635 (2017) undid another assumption of circuit
decisions allowing implied monetary remedies under
§ 13(b). Kokesh held that disgorgement in analogous
SEC enforcement actions is a penalty. Id. at 1643.
Since the power to provide for penalties lies solely
with
Congress,
Kokesh’s
implication
was
unmistakable—disgorgement is unavailable in
equity.
But the view that equitable remedies can be
implied from the text of § 13(b) persisted and, until
the Seventh Circuit’s decision in Credit Bureau, was
precedent in every circuit addressing the question.
Circuits uncritically adopted other circuit decisions,
with little or no meaningful attention to § 13(b)’s text
or to Congress’s carefully constructed statutory
framework in the FTC Act. Courts that did endeavor
to justify monetary relief under § 13(b) invariably
expanded court-made “equity powers” even further,
beyond anything resembling “equity.”
The Ninth Circuit has been at the leading edge of
this “equity power” creep. In place of the express
remedies in § 19 of the FTC Act, the Ninth Circuit,
urged on by FTC enforcement staff, has legislated its
own comprehensive disgorgement remedy under §
13(b). Virtually automatic joint and several liability
was created out of whole cloth; limitations periods do
not exist; the difference between consumer losses and
unjust gains has been erased to ensure maximum
punishment; strict liability calculated from net
revenue is almost always mandatory. See FTC v.
Commerce Planet, Inc., 815 F.3d 593, 600-04 (9th Cir.
2016). Deviation from the Ninth Circuit’s
asymmetrical rules for calculating § 13(b)

4
disgorgement is grounds for vacatur and remand.
App., infra, 2s-5a; 22a-23a.
The case against PBS is the perfect illustration.
PBS originally prevailed on monetary relief. After
conducting a trial and assessing the credibility of
witnesses and experts, a seasoned district judge
rejected the FTC’s request for $34 million in
disgorgement and instead awarded the FTC about
$191,000 against four defendants, who promptly paid
the judgment. The Ninth Circuit vacated the ruling,
finding the district court violated controlling rules for
calculating § 13(b) disgorgement by using an
unchallenged economic expert’s opinion to determine
the alleged unjust gains of PBS rather than supposed
customer losses. The Ninth Circuit also held it was
error to consider whether customers were actually
misled, and whether customers valued PBS’s
product—popular magazines that all customers
admittedly received. FTC v. Publishers Bus. Services,
Inc. (“PBS I”), 540 F. App’x 555, 556–58 (9th Cir.
2013). After remand, a new district judge awarded the
FTC $ 24 million, more than a 12,500% increase. Now,
the Ninth Circuit has affirmed, finding the award
comfortably within its judicially created framework
for disgorgement. App., infra, 2a-7a.
Congress authorized none of this. As the Seventh
Circuit’s Credit Bureau decision recounts, circuit
decisions have veered drastically from the plain text
of § 13(b) and the careful structure of the FTC Act.
Two Ninth Circuit judges in the companion AMG
decision made the same point, using a “concurring”
opinion to dismantle the Ninth Circuit’s “unfortunate
interpretation” of § 13(b) and call for an en banc
reversal of precedent. See App., infra, 26a-41a. The
concurring opinion was not enough to persuade the

5
Ninth Circuit’s other judges, however. The petitions
for en banc review in this case and AMG were denied
on consecutive days. App., infra, 62a, 63a.
The circuit split must be resolved. The Ninth
Circuit has aggressively assumed the legislative role
of Congress, in violation of separation-of-powers
principles. The FTC is being awarded billions of
dollars in judgments under § 13(b) without any
Congressional authorization and few, if any,
procedural requirements or limitations. This Court’s
intervention is therefore needed to resolve the circuit
split and correct decades of regulatory “creep” by the
FTC and misinterpretation of the FTC Act.
A. The path to court-made implied remedies
under § 13(b).
Congress created the FTC and declared its powers
under the FTC Act in 1914. See FTC v. Gratz, 253 U.S.
421, 422 (1920), overruled in part by FTC v. Brown
Shoe Co., 384 U.S. 316 (1966). The purpose “was to
prevent any unfair method which may have been used
by any concern in competition from becoming its
general practice.” See Gratz, 253 U.S. at 441–42
(Brandeis, J., dissenting). The FTC had no authority
“to inflict punishment” or compensate “for any injury
alleged to have resulted from the matter charged.” Id.
at 432, 434. Rather, its powers under § 5 of the Act
were to declare methods of competition unfair and,
after an administrative hearing, to order a violator to
cease and desist. See Brown Shoe, 384 U.S. at 320-22;
15 U.S.C. § 45(a), (b) at App., infra, 70a-72a.
That meant a defendant could continue engaging
in unfair or deceptive practices in violation of the FTC
Act until completion of an administrative hearing.
Congress began to remedy the gap in 1938. The

6
original version of § 13 limited the FTC’s authority to
preliminary (not permanent) injunctions for violations
of § 12, which concerned specific types of deceptive
advertising. See Wheeler-Lea Act of 1938, ch. 49, 52
Stat. 111,115 (codified as amended at 15 U.S.C. §
53(a)). This was the only injunctive remedy the FTC
had until 1973, when Congress enacted § 13(b).
Section 13(b) gave the FTC authority to bring
district court actions to obtain a restraining order or
preliminary injunction to stop ongoing or imminent §
5 violations. The purpose was to “bring an immediate
halt to unfair or deceptive acts or practices when to do
so would be in the public interest.” See S. Rep. No. 93151, at 30 (1973) (emphasis added). The statute
requires the FTC to bring an administrative action
within 20 days. Otherwise the order or injunction
dissolves. 15 U.S.C. § 53(b)(2). The restraining order
or
preliminary
injunction
lasts
until
an
administrative order becomes final, or is set aside or
reversed. Congress included a proviso authorizing a
“permanent injunction” in “proper cases” after “proper
proof.” See id.
In 1974, the Ninth Circuit held the FTC had no
power to obtain restitution through an administrative
cease-and-desist order. See Heater v. FTC, 503 F.2d
321, 323-24 (9th Cir. 1974). That prompted Congress,
in 1975, to pass § 19 of the FTC Act. Section 19 gave
the FTC a host of monetary and other backwardlooking remedies, including “rescission … the refund
of money or return of property, [and] the payment of
damages.” 15 U.S.C. § 57b(b). The remedies were
subject to specific elements and a 3-year statute of
limitations. The statute expressly excluded “the
imposition of any exemplary or punitive damages.”
Id.; see generally Peter Ward, Restitution for

7
Consumers Under the Federal Trade Commission Act:
Good Intentions or Congressional Intentions, 41 AM.
U. L. REV. 1139 (1992).
The procedural hurdles Congress imposed under §
19 were substantial. Unless the FTC first used its
rulemaking authority to ban a particular “unfair or
deceptive” act or practice, see 15 U.S.C. § 57b(a)(1), the
FTC could only obtain money damages through a
multi-step process. First, the FTC needed a cease-anddesist order. 15 U.S.C. § 57b(a)(2). The order was
subject to judicial review in a federal circuit court of
appeals. 15 U.S.C. § 45(c). If the order became final,
the FTC could only recover monetary relief if it proved
a reasonable person would understand the conduct to
be dishonest or fraudulent. 15 U.S.C. § 57b(a)(2); see
FTC v. Sw. Sunsites, Inc., 665 F.2d 711, 722 (5th Cir.
1982).
Seeking to sidestep the requirements of § 19, the
FTC began urging courts to read “equitable monetary
relief” into the injunctive provisions of § 13(b). The
FTC wanted a “shortcut.” See David M. FitzGerald,
The Genesis of Consumer Protection Remedies Under
Section 13(b) of the FTC Act, at 12 (Sept. 23, 2004). 1
This Court’s decisions in Porter and Mitchell supplied
that “shortcut.”
Porter by that time was already three decades old
and had never been used to support implied remedies
under the FTC Act. The decision interpreted § 205(a)
of the Emergency Price Control Act of 1942, which
provided for “a permanent or temporary injunction,
restraining order, or other order.” See Porter, 328 U.S.
1Available

at https://www.ftc.gov/sites/default/files/documents/
publicevents/FTC%2090th%20Anniversary%20Symposium/fitzg
eraldremedies.pdf (last visited Oct. 16, 2019).

8
at 397 (emphasis added). This Court found these
express remedies implicitly authorized restitution of
illegally high rent, reasoning that “[u]nless otherwise
provided by statute, all the inherent equitable powers
of the District Court are available for the proper and
complete exercise of that jurisdiction.” Id. at 398. This
language, repeated with approval in Mitchell, 361
U.S. at 291, became the cornerstone of the FTC’s
efforts to claim implied remedies under § 13(b).
The Fifth Circuit was the first to accept the FTC’s
arguments for reading expanded equity powers into §
13(b) under Porter and Mitchell. The court held that
an asset freeze was “ancillary relief … well within the
jurisdiction of the district court under Section 13(b).”
Sw. Sunsites, 665 F.2d at 720. But for “consumer
redress,” the Fifth Circuit hewed to Congress’s
statutory scheme. The court contemplated a separate
§ 19 civil action and a “two-step process” to monetary
relief: first, an “injunction preserving property” would
issue under § 13(b); second, a “subsequent” FTC
administrative adjudication would decide “the rights
of parties in the property.” See id. at 719.
Months after Southwest Sunsites, the Ninth
Circuit decided Federal Trade Commission v. H. N.
Singer, Inc., 668 F.2d 1107 (9th Cir. 1982), and the
Fifth Circuit’s text-based procedure for a separate §
19 action for monetary relief faded away. Singer held
that § 13(b)’s permanent injunction provision
implicitly authorized preliminary injunctions and
asset freezes. Id. at 1111-13. The FTC succeeded in
getting other circuits to expand on Singer. The
Seventh Circuit read § 13(b) as implicitly authorizing
the rescission of a contract, reasoning the statutory
“power to issue a preliminary injunction carries with
it the power to issue whatever ancillary equitable

9
relief is necessary to the effective exercise of the
granted power.” FTC v. Elders Grain, Inc., 868 F.2d
901, 907 (7th Cir. 1989) (Posner, J.). The same year,
the Seventh Circuit applied its “whatever ancillary
equitable relief is necessary” standard to affirm a $6.6
million joint and several restitution award as
purported “ancillary equitable relief” to a § 13(b)
permanent injunction. FTC v. Amy Travel Serv., Inc.,
875 F.2d 564, 570–72 (7th Cir. 1989).
Amy Travel became the standard, and eight other
circuits adopted its holding. See Credit Bureau, 937
F.3d at 779. Some circuit decisions provided analysis.
See Commerce Planet, 815 F.3d at 598–604
(authorizing joint and several disgorgement under §
13(b) notwithstanding § 19); FTC v. Gem Merch.
Corp., 87 F.3d 466, 470 (11th Cir. 1996) (relying on
Porter). Most simply adopted Amy Travel and its
progeny with little or no discussion. See FTC v. Ross,
743 F.3d 886, 891 (4th Cir. 2014) (allowing restitution
because of Porter, Mitchell, and uniform circuit
practice); FTC v. Magazine Sols., LLC, 432 F. App’x
155, 158 n.2 (3d Cir. 2011) (following “Our sister
Courts of Appeals” in allowing § 13(b) monetary
relief); FTC v. Bronson Partners, LLC, 654 F.3d 359,
365 (2d Cir. 2011) (joining courts holding that “Section
13(b) of the FTC Act permits courts to grant ancillary
equitable relief, including equitable monetary
relief.”); FTC v. Direct Mktg. Concepts, Inc., 624 F.3d
1, 18 (1st Cir. 2010) (stating without analysis “[t]he
district court has discretion to determine a reasonable
approximation of damages”); FTC v. Freecom
Commc’ns, Inc., 401 F.3d 1192, 1202-03 n.6 (10th Cir.
2005) (adopting other circuit reasoning); FTC v. Sec.
Rare Coin & Bullion Corp., 931 F.2d 1312, 1314–15
(8th Cir. 1991) (same).

10
In Credit Bureau, the Seventh Circuit reversed
its 30 year-old decision in Amy Travel, creating an
explicit circuit split. The court determined that circuit
decisions authorizing implied remedies had ignored §
13(b)’s plain text and the FTC Act’s statutory scheme
(if they considered them at all), and overlooked
modern Supreme Court jurisprudence, led by
Meghrig, rejecting Porter’s and Mitchell’s permissive
rules on implied remedies. See Credit Bureau, 937
F.3d at 771-86.
B. Factual and procedural background.
PBS was a small family-owned business that, for
over five decades, sold popular magazines, often
through telemarketing. The FTC sued PBS, its
founder Ed Dantuma (now deceased), his wife, and
their four children, alleging some aspects of a certain
telemarking campaign violated § 5(a) of the FTC Act
and the Telemarketing Sales Rule (“TSR”), 16 C.F.R.
§ 310. The district court ruled on summary judgment
that while PBS disclosed all the material terms of its
offer, the timing and manner of the disclosures
supposedly left a misleading “net impression,” in
violation of § 5(a) and the TSR. FTC v. Publishers Bus.
Services, Inc., 821 F. Supp. 2d 1205, 1224–25 (D. Nev.
2010).
The district court convened a separate trial to
decide monetary relief. In the district court’s words,
the summary judgment had made no findings “that
Defendants’ customers did not receive the magazines
ordered, nor did it find that most of the complaining
customers ever paid any money to Defendants.” FTC
v. Publishers Bus. Services, Inc., 08-CV-00620, 2011
WL 7462205, at *2 (D. Nev. July 25, 2011). The FTC
proved nothing to the contrary at trial and generally
failed to establish any link between purported

11
customer losses and the alleged § 5 “net impression”
violations. Nonetheless, the FTC demanded $34
million in what it called “net revenue”—gross revenue
less refunds—arguing the joint and several remedy
was available within the court’s inherent equity
powers under § 13(b).
The district court, after hearing live testimony
and having the opportunity to assess credibility, found
the vast majority of customers suffered no injury from
the violations and awarded the FTC $191,219, which
PBS promptly paid. App., infra, 2a. The FTC appealed
the final judgment, and the Ninth Circuit vacated the
award, deciding that the district court had improperly
considered a number of factors. PBS I, 540 F. App’x at
556-58. The Ninth Circuit held the district court had
applied an incorrect legal standard in focusing on the
defendants’ unjust gain rather than losses to
customers. The court also found the district court
erred in relying on the defendant’s expert. The Ninth
Circuit found the expert had wrongly assumed
customers who heard all of the disclosures were not
misled, and had improperly discounted customers who
valued their subscriptions. Id.
On remand, the FTC asked for about $ 24 million,
counting all first-time payments from every
customer—even clearly satisfied customers who later
added magazines to existing subscriptions or
renewed. A new district judge adopted wholesale the
FTC’s proposal and entered judgment against PBS in
the amount of $23,773,147.78. App., infra, 2a.
PBS timely appealed the final judgment under 28
U.S.C. § 1291. PBS asked the Ninth Circuit to revisit
and reverse its case law authorizing implied
disgorgement under § 13(b). This Court’s decision in
Kokesh issued during the appeal. Kokesh held that

12
disgorgement in SEC cases was in substance a penalty
and therefore had to be brought within the 5-year
limitations period of 28 U.S.C. § 2462. Kokesh, 137 S.
Ct. at 1639. PBS urged the Ninth Circuit to follow
Kokesh to its logical conclusion—since disgorgement
is a penalty, and thus a legal remedy only Congress
may prescribe, the district court lacked authority to
award it as implied equitable relief under § 13(b). PBS
also argued the district court failed to make any
proximate cause ruling and neglected to apply the 3year limitations period Congress imposed for
monetary relief under § 19. App., infra, 3a-6a.
Another FTC action against companies offering
short-term, high-interest loans, the AMG case, raised
similar issues, including the same threshold challenge
to § 13(b) monetary relief, though with a substantially
greater amount at stake. The district court in AMG
awarded disgorgement under § 13(b) in the amount of
almost $1.3 billion. App., infra, 8a.
The same Ninth Circuit panel heard back-to-back
oral arguments in this case and AMG the same day.
The court affirmed both judgments. The Ninth Circuit
held that arguments against implied monetary
remedies under § 13(b) were “foreclosed by our
precedent,” and determined that Kokesh “has not
abrogated this long-standing precedent.” App., infra,
2a-3a; 19a-21a.
The Ninth Circuit also rejected PBS’s statute of
limitations defense, holding that since § 13(b) does not
contain a limitations period, none applies to § 13(b)
monetary claims. The Ninth Circuit further rejected
PBS’s proximate cause challenge. The court reasoned
that a “presumption of reliance” arises when allegedly
deceptive representations are “widely disseminated,”

13
and proximate cause is satisfied when a transaction
occurs. App., infra, 4a-6a.
Two judges in the AMG decision took the unusual
step of filing a concurring opinion that argued the §
13(b) Ninth Circuit precedent to which they were
bound should be overturned en banc. App., infra, 26a41a (O’Scannlain, J., concurring). The judges found
the “text and structure of the statute unambiguously
foreclose such monetary relief,” App., infra, 26a. The
PBS and AMG defendants petitioned for en banc
review,
highlighting
Judge
O’Scannlain’s
concurrence. The Ninth Circuit denied the petitions
on consecutive days. App., infra, 62a-63a.
REASONS FOR GRANTING THE PETITION
I.

The decision below presents an
acknowledged, direct circuit split.

The Seventh Circuit acknowledged its decision in
Credit Bureau “departs from the consensus view of our
sister circuits.” Credit Bureau, 937 F.3d at 785. That
the Seventh Circuit caused the split by reversing its
landmark ruling in Amy Travel is significant. Amy
Travel was instrumental in advancing the “creep”
toward barely-disguised money damages that § 13(b)
implied remedies have become, as the outsized awards
against PBS and AMG demonstrate. The court’s
reversal of the very precedent other circuits adopted
leaves the law on § 13(b) implied remedies in disarray.
The “consensus” Credit Bureau refers to did not
develop independently. As the Seventh Circuit
described that development, “most circuits adopted
their position by uncritically accepting our holding in
Amy Travel, which expanded on Elders Grain, which
expanded on Singer, which expanded on Porter and
Mitchell.” See id. Credit Bureau represents a sea

14
change, away from blind acceptance of § 13(b)
monetary remedies.
But Credit Bureau was hardly the first opinion to
criticize § 13(b) implied remedies. In 1981, before
Singer, the D.C. Circuit affirmed an order under §
13(b) for the defendant to “hold separate a portion of
the assets” of the company it was merging with,
though the evidence failed to support an injunction
barring the merger outright. FTC v. Weyerhaeuser
Co., 665 F.2d 1072, 1074 (D.C. Cir. 1981) (Ginsburg,
J.). The court decided a hold-separate order was
consistent with “the requirements of equity practice”
and “not outside the range of relief a 13(b) application
may warrant.” Id. at 1084. A dissenting opinion
argued that even this modest extension through
implied equity powers conflicted with § 13(b)’s text.
The “plain meaning of section 13(b) does not warrant
or allow such a result,” the dissent reasoned, for
“[w]hen the FTC satisfies the requirements of 13(b),
the statute permits only the issuance of a temporary
restraining order or a preliminary injunction….” Id. at
1093, 1096 (Mikva, J., dissenting) (emphasis added).
A more recent decision anticipated Credit
Bureau’s textualist approach to § 13(b). The Third
Circuit this year rejected “the FTC’s invitation to
stretch Section 13(b) beyond its clear text,” holding
that § 13(b) bars injunction claims based solely on past
conduct since the statute reaches only “existing or
impending conduct.” FTC v. Shire ViroPharma, Inc.,
917 F.3d 147, 150, 154-57 (3d Cir. 2019). Shire
contrasted § 5, providing for administrative ceaseand-desist orders based on past conduct, with § 13(b)’s
goal “to quickly enjoin ongoing or imminent illegal
conduct.” The Third Circuit reasoned Congress never
intended § 13(b) to enjoin “long-past conduct,” as that

15
would duplicate what § 5 already provides. See id.
Shire did not address the question of implied remedies
under § 13(b). A Third Circuit decision in a footnote
recognized authority to award § 13(b) monetary relief.
See Magazine Sols., 432 F. App’x at 158 n.2. But the
textualist approach in Shire necessarily rejects that
conclusion. The circuit split after Credit Bureau will
surely become more fractured.
Without this Court’s intervention, the split will
remain. The Ninth Circuit restated its aggressive
position on implied remedies just three years ago in
Commerce Planet, 815 F.3d 598-604. The Ninth
Circuit has shown no inclination to revisit that
precedent, not even after the explicit call of two Ninth
Circuit judges for en banc review in a four thousandword concurrence. App., infra, 26a-41a. The split is
entrenched and unsolvable within the circuit courts.
This Court should resolve the split now.
II.

The circuit split raises fundamental
separation-of-powers issues.

The FTC has for decades been able to recover
monetary and other forms of implied relief under §
13(b) while eluding express procedures and
limitations Congress wrote into § 19 and § 13(b). The
results for the FTC have been staggering. In this case
and the companion AMG decision alone, the FTC was
awarded nearly $1.5 billion under § 13(b). Just in the
last few years, the FTC obtained district court
judgments
totaling
over
$17.5
billion
in
“disgorgement and redress.” 2
2
FTC 2018 Annual Highlight Report, available at
https://www.ftc.gov/reports/annual-highlights-2018/stats-anddata (last visited Oct. 15, 2019); FTC 2017 Annual Highlight
Report,
available
at
https://www.ftc.gov/reports/annual-

16
But the stakes involved are not simply a matter of
money. As this Court observed, “[w]hen federal
agencies or courts infer purported remedies from a
federal statute, it has major Constitutional
implications, as it disrupts the separation of powers.”
Ziglar v. Abbasi, 137 S. Ct. 1843, 1857 (2017). That
disruption has rarely been more pronounced than in
cases expanding implied remedies under § 13(b).
The Ninth Circuit’s Singer decision, which
sparked the drive to expansive court-made § 13(b)
remedies, effectively nullified § 13(b)(2)’s 20-day
deadline for the FTC to bring an administrative
action. See Singer, 668 F.2d at 1111. The careful
interplay Congress intended between district court
injunction proceedings and corresponding FTC
administrative actions gave way to FTC convenience
and court-made expedience. The FTC need not bother
with an administrative action when preliminary
injunctions can issue as “ancillary” equitable relief
from § 13(b)’s permanent injunction exception. See id.
Elders Grain in turn inferred from § 13(b)’s
preliminary injunction relief an implied remedy of
rescission, though § 19 explicitly provides for
“rescission,” with a number of procedural
requirements absent from § 13(b). See Elders Grain,
Inc., 868 F.2d at 907. The judicial rewriting of the FTC
Act continued from this premise. Courts relegated §
13(b)’s express remedies to secondary importance,
behind a supposed main role not as remedies but as
gateways to implied “ancillary” relief unconstrained

highlights-2017/stats-and-data (last visited Oct. 15, 2019); FTC
2016
Annual
Highlight
Report,
available
at
https://www.ftc.gov/node/1205233 (last visited October 15, 2019).

17
by procedure, statutory safeguards, or limitations
periods.
This case perfectly illustrates how courts, at the
FTC’s urging, have subverted Congress’s role. The
FTC was awarded enormous sums having proved
little more than a calculation of net revenue (revenue
less refunds). App., infra, 55a-57a. Under the onerous
burden-shifting regime the Ninth Circuit developed,
PBS in theory had the chance to show the FTC’s net
revenue figures was overstated. App., infra, 57a-61a.
But the Ninth Circuit’s “net revenue” formula makes
the burden impossible to meet. See id. Reliance is
presumed for supposedly widely disseminated
misrepresentations—meaning any advertising or
promotional campaign, or any website. And the court
equates reliance with proximate cause. App., infra,
3a. The Ninth Circuit bars courts from considering the
actual value customers received from purchases. The
Ninth Circuit requires courts to count as part of the
net revenue calculation payments from satisfied or
happy customers—even those who returned for
additional purchases. App., infra, 4a, 22a-23a.
These “rules,” created entirely by the FTC and
adopted by the Ninth Circuit, have hardened into a
form of strict liability for § 5 violations. The case
against PBS demonstrates this reality. The Ninth
Circuit vacated the original $191,000 disgorgement
award, achieved after a five-day trial on the merits by
a seasoned trial judge, where the district court
weighed the credibility of customers, defendants, and
experts, to find very few customers were actually
misled or proximately injured by the alleged § 5(a)
violations. Though the district court was in theory
exercising broad “equitable” powers in fashioning a
fair award, the Ninth Circuit vacated the award for

18
not adhering to its strict rules for calculating § 13(b)
disgorgement. See PBS I, 540 F. App’x at 556-58. After
remand, the Ninth Circuit affirmed a new
disgorgement award of almost $24 million, issued by
a new district judge who heard no evidence, observed
no witness, made no credibility assessments, and held
no evidentiary hearing of any kind. App., infra, 2a-7a.
This Court has admonished, “[t]he principle of
separation of powers was not simply an abstract
generalization in the minds of the Framers.” I.N.S. v.
Chadha, 462 U.S. 919, 946 (1983). The punishing
award against the PBS defendants embodies that
principle. Having arrogated to itself authority to infer
new remedies from § 13(b), the Ninth Circuit
legislated a super-structure of alternative relief, all
court-made, bearing no relationship to § 13(b), and
existing wholly independent of § 19’s defendantoriented procedural requirements, safeguards, and
limitations.
Consider the Ninth Circuit’s decision that the 3year limitations period Congress wrote into § 19 does
not apply to § 13(b) disgorgement. See App., infra, 6a.
A 3-year limitations period would have made a
substantial difference in the award against PBS.
Instead, the Ninth Circuit ruled that since § 13(b) does
not contain any limitations period, none applies to §
13(b) equitable disgorgement. See id. For the Ninth
Circuit, the absence of a limitations period is not
evidence of a statute limited by design to halting
ongoing or imminent violations, in which a 3-year
limitations period would scarcely make sense. See
Shire, 917 F.3d at 156 (“Simply put, Section 13(b) does
not permit the FTC to bring a claim based on longpast conduct”). It is a sign that the FTC is free to bring

19
§ 13(b) claims for monetary relief at any time in the
future.
The same goes for § 19’s “reasonable man”
requirement. In Congress’s careful structure under §
19, proof that a “reasonable man would have known
under the circumstances [his conduct] was dishonest
or fraudulent” acts as a crucial check on the FTC’s
ability to recover monetary relief for practices not
clearly identified as unfair or deceptive, either
through formal rule-making procedures or cease and
desist actions. See 15 U.S.C. § 57b(a)(2). The
“reasonable man” element plays no part in a § 13(b)
monetary award in the Ninth Circuit.
The Seventh Circuit stands alone in adhering to
this Court’s instruction from Ziglar: “separation-ofpowers principles are or should be central to the
analysis” of implied remedies. Ziglar, 137 S. Ct. at
1857. “The question is ‘who should decide’ whether to
provide for a damages remedy, Congress or the
courts… The answer most often will be Congress.” Id.
The answer in the Ninth Circuit is most definitely not
Congress when it comes § 13(b).
The circuit split thus leaves a jarring discrepancy.
In the Seventh Circuit, the FTC could have recovered
no more than injunctive relief under § 13(b). Claims
for monetary relief could only have been brought
under § 19, which cuts off the time period for recovery
at 3 years and includes elements and prerequisites the
FTC would have faced substantial challenges to prove.
See 15 U.S.C. § 57b(a) and (d). In the Ninth Circuit,
and those circuits still inferring monetary remedies
from § 13(b), monetary relief is unlimited, and the
procedures and limitations Congress required are
irrelevant. The difference between an FTC action in
the Seventh Circuit and those circuits still recognizing

20
implied remedies under § 13(b) is life-altering. This
Court’s intervention is urgently needed to end
decades’ worth of FTC and court intrusion into
Congress’s constitutional role.
III.

The decision below conflicts with this
Court’s decision in Kokesh.

Kokesh has confounded the circuits. This Court’s
thorough analysis identifying SEC disgorgement as a
“penalty” under the federal statute of limitations, 28
U.S.C. § 2462, would seem to have sounded the death
knell for disgorgement as “ancillary” equitable relief.
Penalties are not equitable relief, as equity seeks to
restore the status quo and not punish a wrongdoer.
See Tull v. U.S., 481 U.S. 412, 424 (1987) (finding “a
court in equity … may not enforce civil penalties.”);
Hecht Co. v. Bowles, 321 U.S. 321, 329-30 (1944)
(explaining that equity is an “instrument for nice
adjustment and reconciliation,” not punishment);
Mertens v. Hewitt Assocs., 508 U.S. 248, 270-72 (1993)
(White, J., dissenting) (reviewing scholarship and
precedent that determined “courts of equity would not
… enforce penalties or award punitive damages”); see
also Dan B. Dobbs & Caprice L. Roberts, Law of
Remedies § 4.3, at 397 (3d ed. 2018) (discussing the
aim of equity).
Moreover, § 13(b) disgorgement in the Ninth
Circuit easily fits within this Court’s “penalty”
definition. Kokesh identified three characteristics. A
penalty “is imposed by the courts as a consequence for
violating . . . public laws.” Kokesh, 137 S. Ct. at 1643.
The Ninth Circuit has stressed this very point as
justification for expansive § 13(b) remedies. See
Commerce Planet, 815 F.3d at 599 (reasoning § 13(b)
actions involve the “public interest” rather than a
“private controversy”). Second, disgorgement is

21
“punitive” rather than “remedial.” Ninth Circuit
disgorgement must be “ordered without consideration
of a defendant’s expenses that reduced the amount of
illegal profit,” so it “does not simply restore the status
quo [but] leaves the defendant worse off.” Id. at 1644–
45; see App., infra, 34a, 36a. Under the Ninth Circuit’s
rules, joint and several liability (nowhere mentioned
or implied in §13(b)) is required, and awarding “net
profits” rather than “net revenue” is reversible error.
See PBS I, 540 F. App’x at 556. The individual PBS
defendants received only a small fraction of the $24
million award, yet each of them is jointly and severally
liable for the entire judgment. Third, disgorgement is
“not compensatory” because funds are often paid “to
the United States Treasury” rather than alleged
victims. Id. at 1644. In this case, the FTC was
awarded the disgorgement, and it is under no
requirement to disburse any funds to PBS customers.
App., infra, 61a.
Despite these characteristics, the decision below
dismissed Kokesh for having “expressly restricted”
itself to the statute of limitations, 28 U.S.C. § 2462,
the same reasoning offered in the majority opinion in
AMG. App., infra, 3a, 21a. The Ninth Circuit relied on
Kokesh’s footnote 3, that “nothing in this opinion
should be interpreted as an opinion on whether courts
possess authority to order disgorgement in SEC
enforcement proceedings.” Id. (quoting Kokesh, 137 S.
Ct. at 1642 n. 3). In the Ninth Circuit’s view, Kokesh
did not “definitive[ly] enough” reject Ninth Circuit
“interpretations of section 13(b) to cause us to depart
from our long-standing precedent.” App., infra, 3a.
Yet two of the panel judges who reached this
conclusion filed a concurring opinion in AMG finding
that Kokesh “undermines a premise in our reasoning”

22
and requires reversal of Ninth Circuit precedent.
App., infra, 33a-35a (O’Scannlain, J., concurring).
That conclusion has been echoed by other judges.
Before his elevation to this Court, then-Judge
Kavanaugh found “[t]he Supreme Court’s reasoning in
Kokesh was not limited to the specific statute at issue
there….” Saad v. SEC, 873 F. 3d 297, 305 (D.C. Cir.
2017) (Kavanaugh, J., concurring). Judge Merritt in
the Sixth Circuit similarly observed that, after
Kokesh, “the theory [of equitable disgorgement] may
not even be applicable in SEC contexts for much
longer,” and he doubted whether the implied remedy
ever had any basis, as “Lord Coke, Blackstone, Justice
Story, and other distinguished lawyers … would never
have heard of ‘equitable disgorgement.’” Osborn v.
Griffin, 865 F.3d 417, 471 n.1 (6th Cir. 2017) (Merritt,
J., dissenting) (citing Colleen P. Murphy,
Misclassifying Monetary Restitution, 55 SMU L. Rev.
1577, 1598–1600 (2002)).
Most recently, the Third Circuit applied Kokesh to
hold that an obey-the-law SEC injunction could not be
subject to § 2462 because “a properly issued and
framed SEC injunction” can never be a “penalty” as
defined by Kokesh, since “injunctions must be
intended to deter the violator from further infractions
(and thereby protect the public), not punish past
misconduct.” SEC Gentile, 18-1242, 2019 WL
4686251, at *7 (3d Cir. Sept. 26, 2019). The Third
Circuit wrestled with the “puzzle” Kokesh had in the
court’s view left behind—if “disgorgement is both an
equitable remedy and a § 2462 penalty, could an
injunction be both too?” See id. at *9.
In fact, this Court conspicuously did not decide
whether SEC disgorgement is properly an “equitable
remedy” within a district court’s inherent powers. See

23
Kokesh, 137 S. Ct. at 1642 n. 3. Footnote 3 reserves
that question, though several members of this Court
asked it directly at oral argument:
JUSTICE KENNEDY: [I]s there specific
statutory authority that makes it clear that
the district court can entertain this remedy?
MR. UNIKOWSKY (for Kokesh): There’s no
specific statutory authority….
JUSTICE SOTOMAYOR: Can we go back to
the authority? 78u, which is the only authority
I can imagine, says, “A court may grant any
equitable relief that may be appropriate or
necessary for the benefit of investors.” If they
are not doing—if they’re not doing restitution,
how could that be the basis of disgorgement?
MR. UNIKOWSKY: So that statute was
enacted 30 years after the SEC already
started seeking disgorgement….
JUSTICE SOTOMAYOR: Well, I’ll let your
adversary tell me what the source of their
power is, but I—I—it is unusual.
...
CHIEF JUSTICE ROBERTS: One reason we
have this problem is that the SEC devised this
remedy or relied on this remedy without any
support from Congress. If Congress had
provided, here’s a disgorgement remedy, you
would expect them, as they typically do, to
say, here’s a statute of limitations that goes
with it…
Chief Justice Marshall said it was utterly
repugnant to the genius of our laws to have a
penalty remedy without limit…. [T]he

24
concern, it sees seems to me, is multiplied
when it’s not only no limitation, but it’s
something that the government kind of
devised on its own.
...
JUSTICE ALITO: [I]n order to decide whether
this thing is a penalty or a forfeiture, we need
to understand what this thing is. And in order
to understand what it is, it would certainly be
helpful and maybe essential to know what the
authority for it is.
...
JUSTICE GORSUCH: Well, here we don’t
know, because there’s no statute governing it.
We’re just making it up.
MS. GOLDENBERG (for the SEC): Well, I
wouldn’t say that, Your Honor. There are
almost 50 years of precedents on how this
should work, and I think the way it worked
is—
JUSTICE GORSUCH: Not in this Court.
Oral Arg. Tr., SEC v. Kokesh, No. 16-529, 2017 WL
1399509 at *7-9, 13, 31-32, 52 (U.S. April 18, 2017).
What Kokesh did decide appears to answer these
questions. That SEC disgorgement is a penalty under
§ 2462 necessarily cancels its availability as equitable
relief. See, e.g., Tull, 481 U.S. at 424, Hecht, 321 U.S.
at 329-30. Nothing in footnote 3 restricts the decision’s
penalty analysis to § 2462. And disgorgement hardly
sheds its penalty characteristics outside of § 2462’s
limitations period. The footnote speaks loudest by
what it does not say: it does not endorse existing case
law authorizing implied equitable disgorgement. See

25
Gentile, 2019 WL 4686251 at *9 (finding that “though
the Kokesh Court was careful to reserve the issue …
we note its skepticism that SEC disgorgement is
applied in conformity with traditional equitable
principles”); Chad M. Clamage, Esq., Supreme Court’s
SEC Decision Could Limit Other Federal Agencies, 33
No. 1 Westlaw J. Corp. Officers & Directors Liability
1, 2017 WL 2935836, at *4 (July 10, 2017) (observing
“[in] the Supreme Court’s vernacular, [the footnote] is
a strong signal that the court doubts whether the SEC
may obtain disgorgement at all.”).
The circuits need this Court’s guidance on how to
apply Kokesh. Its analysis has clear application
outside the confines of § 2462, as two of the three
panel judges below persuasively argue in the AMG
concurrence. App., infra, 33a-35a. Unfortunately, the
same judges reached exactly the opposite conclusion
in the majority decisions. App., infra, 2a-3a; 19a-21a.
The circuits are confused. This Court should grant
this petition to ensure that Kokesh is correctly and
uniformly applied.
IV.

The decision below is wrong.

The Seventh Circuit’s decision in Credit Bureau
and Judge O’Scannlain’s concurrence in AMG are
correct in finding the case law approving § 13(b)
implied remedies fundamentally wrong. The opening
lines of the subsection require that the FTC have a
well-founded belief that a “person, partnership, or
corporation is violating, or is about to violate, any
provision of law enforced by the [FTC]….” 15 U.S.C. §
53(b)(1) (emphasis added). The statute limits
remedies to a restraining order or preliminary
injunction. Id. A provision is made for “a permanent
injunction” after “proper proof.” 15 U.S.C. § 53(b).
There is no suggestion in this text that Congress

26
intended any other remedy. A forward-looking
injunction neither is nor implies a backward-looking
monetary remedy, or any of the other broad “ancillary
relief” courts have for decades been reading into the
statute.
Nor are there any procedures or limitations in §
13(b) suited for monetary relief. The Ninth Circuit
viewed § 13(b)’s lack of procedures and limitations as
an invitation to write its own rules for disgorgement.
App., infra, 5a-6a. This is Constitutionally wrong. The
correct reading is not to infer that § 13(b) is liberated
of procedures and limitations periods for monetary
relief, but that § 13(b) does not provide that relief to
begin with. As Chief Justice Roberts alluded to at the
Kokesh oral argument, it would be “utterly repugnant
to the genius of our laws” that, “[i]n a country where
not even treason can be prosecuted after a lapse of
three years … an individual would remain forever
liable to a pecuniary forfeiture.” Adams v. Woods, 6
U.S. 336, 342 (1805) (Marshall, C.J.).
There is also no need to imply equity remedies in
§ 13(b). Section 19 contemplates the customer redress
and damages that courts have instead freely imposed
in the purported name of “equity” under § 13(b).
Section 19 specifies “customer redress,” “rescission,”
and “damages,” but is built around a reserve clause for
“such relief as the court finds necessary to redress
injury to consumers or other persons” resulting from
rule violations or unfair or deceptive acts or practices.
15 U.S.C. § 57b(b). A fundamental rule “of equity
jurisprudence [is] that courts of equity should not act
… when the moving party has an adequate remedy at
law and will not suffer irreparable injury if denied
equitable relief.” O’Shea v. Littleton, 414 U.S. 488, 499
(1974) (citations omitted). Under the FTC Act, § 13(b)

27
injunctions prevent “irreparable injury,” while § 19
provides the legal relief. The circuits inferring broad
equitable monetary and other remedies in § 13(b) have
disregarded the first rule of equity.
They have also disregarded “the notable change in
the Court’s approach to recognizing implied causes of
action.” Ziglar, 137 S. Ct. at 1857. Assuming vast
implied remedies under § 13(b) in reliance on Porter
and Mitchell is no longer viable, if it ever was. This
Court has soundly repudiated presumptions favoring
implied remedies from statutes whose only invitation
to equity remedies is that the statutes do not explicitly
exclude them. The prevailing rule in this Court is that
“where Congress has provided elaborate enforcement
provisions for remedying the violation of a federal
statute … it cannot be assumed that Congress
intended to authorize by implication additional
judicial remedies….” Meghrig, 516 U.S. at 487-88.
Meghrig may have directed that instruction to
“private citizen” suits, see id., but this Court has since
applied it to an array of statutory civil actions,
including government actions. See Sandoz Inc. v.
Amgen Inc., 137 S. Ct. 1664, 1675 (2017) (finding
remedies in the “carefully crafted and detailed
enforcement scheme” of the Biologics Price
Competition and Innovation Act exclusive, as
“Congress did not intend to authorize other remedies
that it simply forgot to incorporate expressly”)
(citation omitted); Honeycutt v. U.S., 137 S. Ct. 1626,
1634 (2017) (rejecting Government arguments that in
criminal forfeiture statutes, Congress “legislated
against the background principles of conspiracy
liability” since “[t]he plain text and structure of § 853
leave no doubt that Congress did not incorporate those
background principles.”); Ziglar, 137 S. Ct. at 1857

28
(discussing implied remedies in Bivens actions);
Great–W. Life & Annuity Ins. Co. v. Knudson, 534 U.S.
204, 209 (2002) (refusing to infer monetary remedies
in ERISA).
At its heart, the decision below reflects years of
disregard for Constitutional separation-of-powers
principles. See Ziglar, 137 S. Ct. at 1857. The Ninth
Circuit’s regime of joint and several “net revenue”
disgorgement stands in stark contrast to any
procedure authorized by the FTC Act. Ninth Circuit
disgorgement is punishment, complete with daunting
procedural burdens and outrageously punitive
monetary awards. See Kokesh, 137 S. Ct. at 1643-45.
It is the very sort of punishment the FTC Act
expressly forbids. See 15 U.S.C. § 57b(b) (“nothing in
this subsection is intended to authorize the imposition
of any exemplary or punitive damages.”).
That Ninth Circuit disgorgement reflects every
characteristic of a penalty under Kokesh is no
coincidence. The FTC advocated for these standards,
specifically to avoid § 19. The Ninth Circuit precedent
the decision below followed cannot stand as a valid
interpretation of § 13(b) or of the FTC Act.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.

29
Respectfully submitted,
PETER W. HOMER
Counsel of record
CHRISTOPHER J. KING
HOWARD S. GOLDFARB
HOMER BONNER JACOBS
1200 Four Seasons Tower
1441 Brickell Avenue
Miami, Florida 33131
(305) 350-5100
phomer@homerbonner.com
Attorneys for Petitioners
October 18, 2019

Appendices

TABLE OF APPENDICES
Appendix A
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit, FTC
v. Dirk Dantuma, et al., 17-15600 (August
31, 2018) ............................................................. 1a
Appendix B
Opinion of the United States Court of
Appeals for the Ninth Circuit, FTC v. AMG
Capital Mgt., LLC, et al., 16-17197
(December 3, 2018) ............................................ 8a
Appendix C
Order of the United States District Court
for the District of Nevada Granting Motion
for Judgment, FTC v. Publishers Bus.
Services, Inc., 2:08-cv-00620-APG-GWF
(February 1, 2017) ............................................. 45a
Appendix D
Order of the United States Court of Appeals
for the Ninth Circuit denying petition for
panel rehearing and petition for rehearing
en banc, FTC v. Dirk Dantuma, et al., 1715600 (June 19, 2019) ....................................... 63a
Appendix E
Order of the United States Court of Appeals
for the Ninth Circuit denying petition for
rehearing en banc, FTC v. AMG Capital
Mgt., LLC, et al., 16-17197 (June 20, 2019) ..... 64a

Appendix F
Constitutional and Statutory Provisions
Involved.............................................................. 65a
§ 13 of the FTC Act (15 U.S.C. §53) .............. 65a
§ 19 of the FTC Act (15 U.S.C. § 57b) ........... 67a
§ 5 of the FTC Act (15 U.S.C. § 45) ............... 70a

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-15600
FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.
DIRK DANTUMA; DRIES DANTUMA; EDWARD
FRED DANTUMA; JEFFREY DANTUMA; ED
DANTUMA ENTERPRISES, INC., DBA Publishers
Business Services, DBA Publishers Direct Services;
PUBLISHERS BUSINESS SERVICES, INC.;
BRENDA DANTUMA SCHANG,
Defendants-Appellants,
MEMORANDUM *
Argued and Submitted August 15, 2018
San Francisco, California
Filed: August 31, 2018
Before: O’SCANNLAIN and BEA, Circuit Judges,
and STEARNS, District Judge
This case concerns a telemarketing scheme to sell
magazine subscriptions. From 2004 to 2008, Publisher
Business Services, Inc. (“PBS”) used a collection of
deceptive telemarketing scripts to sell magazine
subscriptions to consumers on the pretense that PBS
was conducting a “survey.” In 2008, the Federal Trade
This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

*

2a
Commission (“FTC”) filed suit against PBS, alleging
that PBS’s actions violated section 5 of the FTC Act,
15 U.S.C. § 45(a), and requesting equitable relief from
the district court under section 13(b) of the FTC Act,
15 U.S.C. § 53(b).
On cross-motions for summary judgment, the
district court found that PBS had violated the FTC
Act, but held that a further hearing on monetary relief
was required. After an evidentiary hearing, the
district court entered judgment against PBS in the
amount of $191,219. The FTC appealed the district
court’s calculation of monetary relief, but PBS did not
file a cross-appeal regarding liability. We reversed the
district court and remanded for further proceedings on
monetary relief. See FTC v. Publishers Bus. Servs.,
Inc., 540 F. App’x 555, 556–58 (9th Cir. 2013) (“PBS
I”).
On remand, a new district court judge awarded
the FTC nearly $24 million in equitable monetary
relief. PBS appeals, raising a number of arguments.
We review a district court’s order granting
equitable relief under the FTC Act “for abuse of
discretion or the erroneous application of legal
principles.” FTC v. Network Servs. Depot, Inc., 617
F.3d 1127, 1141 (9th Cir. 2010). A district court
Abuses its discretion when it fails to identify and
apply “the correct legal rule to the relief requested,” or
if its application of the legal standard was “illogical,
implausible, or without support in inferences that
may be drawn from the facts in the record.” United
States v. Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009)
(en banc).
1. PBS first argues that the district court lacked
the authority to enter equitable monetary relief under
section 13(b) of the FTC Act. This argument is

3a
foreclosed by our precedent. We have repeatedly held
that section 13(b) of the FTC Act grants district courts
the power to impose equitable remedies, including
restitution and disgorgement of unjust gains. See FTC
v. Commerce Planet, Inc., 815 F.3d 593, 598–99 (9th
Cir. 2016); FTC v. Neovi, Inc., 604 F.3d 1150, 1159–60
(9th Cir. 2010); FTC v. Pantron I Corp., 33 F.3d 1088,
1102 (9th Cir. 1994).
Contrary to PBS’s argument, Kokesh v. SEC, 137
S. Ct. 1635 (2017), has not abrogated this longstanding precedent. The Kokesh Court itself expressly
restricted its ruling to whether the SEC’s power to
seek equitable disgorgement was subject to a five-year
statute of limitations and specifically stated that
“[n]othing in this opinion should be interpreted as an
opinion on whether courts possess authority to order
disgorgement in SEC enforcement proceedings.” 137
S. Ct. at 1642 n.3. Kokesh is far from definitive enough
regarding our interpretations of section 13(b) to cause
us to depart from our long-standing precedent. See
Miller v. Gammie, 335 F.3d 889, 899 (9th Cir. 2003)
(en banc).
2. The district court did not abuse its discretion
when it applied a presumption that consumers who
bought PBS’s products relied on PBS’s deceptive
tactics and representations. We have previously held
that “proof of individual reliance by each purchasing
customer is not needed” to establish liability under
section 13(b). FTC v. Figgie Int’l, Inc., 994 F.2d 595,
605 (9th Cir. 1993). Rather, “[a] presumption of actual
reliance arises once the Commission has proved that
the defendant made material misrepresentations,
that they were widely disseminated, and that
consumers purchased the defendant’s product.” Id. at
605–06. Here, the district court did not abuse its

4a
discretion in concluding that all three factors were
present. 1
The district court also did not err in rejecting
PBS’s argument that evidence of “satisfied” customers
who renewed their subscriptions did not rebut the
presumption of reliance. We have previously held that
there is “no authority” for the proposition that
equitable monetary awards in the consumer
protection context should be reduced by amounts paid
by customers who were “satisfied” or obtained a
benefit from the defendant’s services. See FTC v. Gill,
265 F.3d 944, 958 (9th Cir. 2001); Consumer Fin. Prot.
Bureau v. Gordon, 819 F.3d 1179, 1196 (9th Cir. 2016).
Additionally, as the district court found, the fact that
a consumer later decided to renew his or her
subscription “does not necessarily mean [his or her]
original decision to purchase was free from the taint
of [PBS’s] deceptive sales practices.” This conclusion
makes sense. The fact that a customer was satisfied
months or years after the fact does not mean that the
customer did not rely on PBS’s deceptive sales
techniques at the time of the original purchase.
Contrary to PBS’s argument, the district court’s application of
the presumption of reliance did not absolve the FTC of its
responsibility to prove that the harm to the consumer was
proximately caused by PBS’s wrongful conduct. Nothing in the
district court’s ruling or reasoning runs afoul of the Supreme
Court’s decision in Bank of America Corporation v. City of Miami,
137 S. Ct. 1296 (2017). The relationship between PBS’s wrongful
conduct and the harm to the consumer was not attenuated or
merely “foreseeable,” it was direct: consumers were induced to
enter into the transaction as a result of PBS’s deceptive tactics
and representations. Similarly, Dura Pharmaceuticals, Inc. v.
Broudo, 544 U.S. 336, 339–40 (2005), is inapposite because, in
this case, the FTC sought relief only for those consumers who
were damaged when they actually paid PBS after being induced
to enter into the transaction because of PBS’s deceptive tactics.
1

5a
Without other evidence, PBS’s arguments to the
contrary are speculative. The district court’s findings
on this issue were not “illogical, implausible, or
without support in inferences that may be drawn from
the facts in the record.” Hinkson, 585 F.3d at 1263.
3. PBS also argues that the district court erred on
remand by considering evidence that was submitted
at the summary judgment stage of the proceedings,
including declarations from PBS customers and
former PBS employees. PBS did not raise this
argument in the district court and, as a result, has
waived the argument on appeal. Abogados v. AT&T,
Inc., 223 F.3d 932, 937 (9th Cir. 2000) (“Since the
district court did not have an opportunity to consider
this argument, it is waived.”).
Further, PBS’s argument is barred by the invited
error doctrine. Not only did PBS fail to argue that the
district court should not consider declarations
submitted at summary judgment, its own briefing
contains a number of references to the very material
it claims the district court erred by considering. For
instance, PBS repeatedly directed the district court to
the customer declarations it now seeks to exclude,
arguing that those declarations showed that very few
customers were actually deceived or damaged. We
have long held that a party “may not complain on
review of errors below for which he is responsible.” See
Deland v. Old Republic Life Ins. Co., 758 F.2d 1331,
1336 (9th Cir. 1985) (quoting Hudson v. Wylie, 242
F.2d 435, 448 (9th Cir. 1957)). Here, any error
committed by the district court in considering
evidence from the summary judgment record was
invited by PBS’s briefing, which specifically asked the
district court to consider that evidence.
4. Next, PBS argues that the FTC’s claims are
subject to the three-year statute of limitations

6a
contained in section 19 of the FTC Act. This argument
is meritless. The FTC brought its claims under section
13(b) of the FTC Act, which contains no statute of
limitations. Section 19 of the FTC Act does not provide
that its statute of limitations applies to actions under
section 13(b). “In the absence of a federal statute
expressly imposing or adopting one, the United States
is not bound by any limitations period.” United States
v. Dos Cabezas Corp., 995 F.2d 1486, 1489 (9th Cir.
1993).
5. Finally, PBS attempts to argue that the district
court’s original summary judgment ruling regarding
liability was erroneous. PBS has waived any challenge
to the district court’s rulings on liability. During PBS
I, PBS did not cross-appeal the district court’s ruling
that PBS was liable under the FTC Act. We have
repeatedly held that we “need not and do[] not
consider a new contention that could have been but
was not raised on the prior appeal.” See Munoz v.
Imperial Cty., 667 F.2d 811, 817 (9th Cir. 1982). We
have also previously held that even parties who were
satisfied with the district court’s judgment must file a
cross-appeal to preserve issues for review in
subsequent appeals following a remand. See Alioto v.
Cowles Commc’ns, Inc., 623 F.2d 616, 618 (9th Cir.
1980). 2 As a result, PBS waived any arguments
regarding the district court’s liability ruling when it

2

Contrary to PBS’s argument that it should be excused for the
failure to file a protective cross-appeal because they are
“disfavored,” we have previously endorsed the use of protective
cross-appeals. See Alioto, 623 F.3d at 617; see also Warfield v.
Alaniz, 569 F.3d 1015, 1019 (9th Cir. 2009) (“A protective crossappeal is permissible once an initial appeal is filed, raising the
possibility of reversal.

7a
failed to raise those arguments by way of a crossappeal in PBS I.
In light of the above, the district court’s judgment
is AFFIRMED.

8a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 16-17197
FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.
AMG CAPITAL MANAGEMENT, LLC; BLACK
CREEK CAPITAL CORPORATION; BROADMOOR
CAPITAL PARTNERS, LLC; LEVEL 5
MOTORSPORTS, LLC; SCOTT A. TUCKER; PARK
269 LLC; KIM C. TUCKER,
Defendants-Appellants.
Argued and Submitted August 15, 2018
San Francisco, California
Filed December 3, 2018
Before: Diarmuid F. O’Scannlain and Carlos T. Bea,
Circuit Judges, and Richard G. Stearns, District
Judge.
Opinion by Judge O’Scannlain; Concurrence by Judge
O’Scannlain; Concurrence by Judge Bea.
OPINION
O’SCANNLAIN, Circuit Judge:
We must decide whether the Federal Trade
Commission Act can support an order compelling a
defendant to pay $1.27 billion in equitable monetary
relief.

9a
I
A
Scott Tucker controlled a series of companies that
offered high-interest, short-term loans to cashstrapped customers. He structured his businesses to
offer these payday loans exclusively through a number
of
proprietary
websites
with
names
like
“500FastCash,” “OneClickCash,” and “Ameriloan.”
Although these sites operated under different names,
each disclosed the same loan information in an
identical set of loan documents. Between 2008 and
2012, Tucker’s businesses originated more than 5
million payday loans, each generally disbursing
between $150 and $800 at a triple-digit interest rate.
The application process was simple. Potential
borrowers would navigate to one of Tucker’s websites
and enter some personal, employment, and financial
information. Such information included the
applicant’s bank account and routing numbers so that
the lender could deposit the funds and—when the bill
came due—make automatic withdrawals. Approved
borrowers were directed to a web page that disclosed
the loan’s terms and conditions by hyperlinking to
seven documents. The most important of these
documents was the Loan Note and Disclosure (“Loan
Note”), 1 which provided the essential terms of the loan
as mandated by the Truth in Lending Act (“TILA”).
See 15 U.S.C. § 1601 et seq. Borrowers could open the
Loan Note and read through its terms if they chose,
but they could also simply ignore the document,
electronically sign their names, and click a big green
button that said: “I AGREE Send Me My Cash!”

1

An example of the Loan Note is reproduced in the Appendix.

10a
B
In April 2012, the Federal Trade Commission
(“Commission”) filed suit against Tucker and his
business in the District of Nevada. 2 The Commission’s
amended complaint alleged that Tucker’s business
practices violated § 5 of the Federal Trade
Commission Act’s (“FTC Act”) prohibition against
“unfair or deceptive acts or practices in or affecting
commerce.” 15 U.S.C. § 45(a)(1). 3 In particular, the
Commission alleged that Tucker violated § 5 because
the terms disclosed in the Loan Note did not reflect
the terms that Tucker actually enforced. Thus, the
Commission asked the court permanently to enjoin
Tucker from engaging in consumer lending and to
order him to disgorge “ill-gotten- monies.”
In December 2012, the parties agreed to bifurcate
the proceedings in the district court into a “liability
phase” and a “relief phase.” During the liability phase,
the Commission moved for summary judgment on the
FTC Act claim, which the district court granted. In the
relief phase, the court enjoined Tucker from assisting
As is relevant on appeal, Tucker’s businesses include
defendants-appellants AMG Capital Management, LLC; Black
Creek Capital Corporation; Broadmoor Capital Partners, LLC;
and Level 5 Motorsports, LLC. Tucker is the sole owner of these
corporations, and we refer to them collectively as “Tucker.” The
Commission’s complaint also alleged that defendants-appellants
Kim Tucker (Scott Tucker’s wife) and Park 269 (a limited liability
corporation that Kim Tucker owns) “received funds” that could
be “traced directly to [Tucker’s] unlawful acts or practices.”
2

The Commission also claimed that such practices violated
TILA’s “Regulation Z,” which requires disclosures to be made
“clearly and conspicuously.” 12 C.F.R. § 1026.17(a)(1). These
formally independent legal theories are largely duplicative,
however, because TILA states that a violation of its provisions
“shall be deemed” a violation of the FTC Act. 15 U.S.C. § 1607(c).
3

11a
“any consumer in receiving or applying for any loan or
other extension of Consumer Credit,” and ordered
Tucker to pay approximately $1.27 billion in equitable
monetary relief to the Commission. The district court
instructed the Commission to direct as much money
as practicable to “direct redress to consumers,” then to
“other equitable relief . . . reasonably related to the
Defendants’ practices alleged in the complaint,” and
then to “the U.S. Treasury as disgorgement.” Tucker
timely appeals and challenges both the entry of
summary judgment and the relief order.
II
Tucker first argues that the district court wrongly
granted the Commission’s motion for summary
judgment finding Tucker liable for violating § 5 of the
FTC Act.
A
Section 5 of the FTC Act prohibits “deceptive acts
or practices in or affecting commerce.” 15 U.S.C. §
45(a)(1). To prevail, the Commission must show that
a representation, omission, or practice is “likely to
mislead consumers acting reasonably under the
circumstances.” FTC v. Stefanchik, 559 F.3d 924, 928
(9th Cir. 2009) (internal quotation marks omitted).
This consumer-friendly standard does not require the
Commission to provide “[p]roof of actual deception.”
Trans World Accounts, Inc. v. FTC, 594 F.2d 212, 214
(9th Cir. 1979). Instead, it must show only that the
“net impression” of the representation would be likely
to mislead—even if such impression “also contains
truthful disclosures.” FTC v. Cyberspace.com LLC,
453 F.3d 1196, 1200 (9th Cir. 2006).

12a
1
In this case, the Commission argues that Tucker
violated § 5 because the Loan Note was likely to
mislead borrowers about the terms of the loan. The top
third of such Loan Note contained the so-called TILA
box, which disclosed the “amount financed,” the
“finance charge,” the “total of payments,” and the
“annual percentage rate.” The “amount financed”
portion of the box was the amount borrowed, and the
“finance charge” was equal to 30 percent of the
borrowed amount. The final two figures were
calculated by summing the principal and the finance
charge (“total of payments”) and then determining the
“annual percentage rate.” By way of illustration,
suppose that a customer wanted to borrow $300. The
Loan Note’s TILA box would state that the “amount
financed” was $300, that the “finance charge” was $90,
and that the “total of payments” was $390. The
“annual percentage rate” would vary based on the
date the first payment was due.
But the fine print below the TILA box was
essential to understanding the loan’s terms. This
densely packed text set out two alternative payment
scenarios: (1) the “decline-to- renew” option and (2) the
“renewal” option. Beneath the TILA box, the Loan
Note stated: “Your Payment Schedule will be: 1
payment of [the ‘total of payments’ number] . . . if you
decline* the option of renewing your loan.” The
asterisk directed the reader to text five lines further
down the page, which read: “To decline this option of
renewal, you must select your payment options using
the Account Summary link sent to your email at least
three business days before your loan is due.” Tucker
would send this “Account Summary link” three days
after the funds were disbursed. With this email,
borrowers hoping to exercise the decline-to- renew

13a
option had to navigate through an online customerservice portal, affirmatively choose to “change the
Scheduled” payment, and agree to “Pay Total
Balance.” All of this had to be done “at least three
business days” before the next scheduled payment.
Thus, the borrower had to take affirmative action
within a specified time frame if he hoped to pay only
the amount listed in the TILA box as the “total of
payments.”
By contrast, the “renewal” option would end up
costing a borrower significantly more. Importantly,
renewing the loan did not require the borrower to take
any affirmative action at all; it was the default
payment schedule. On the third line below the TILA
box, the Loan Note read: “If renewal is accepted you
will pay the finance charge . . . only.” And with each
“renewal,” the borrower would “accrue new finance
charges”—that is, an additional 30-percent premium.
After the fourth renewal, Tucker would begin to
withdraw the “finance charge plus $50,” and he would
withdraw another such payment each subsequent
period until the loan was paid in full.
To illustrate, consider again the example of the
customer who wanted to borrow $300. The Loan
Note’s TILA box would indicate that his “total of
payments” would be $390, equaling $300 in principal
plus a $90 finance charge. But he would be required
to pay much more than that, unless he took the
affirmative steps to “decline” to renew the loan. Once
again, these steps required him to wait three days
after getting the cash, follow a link in a separate
email, and agree at least three days before the due
date to pay the full balance. If he failed to perform this
routine, then he would owe yet another finance change
(equaling another 30 percent of the borrower’s
remaining balance) at the next due date. And if he

14a
simply let Tucker automatically withdraw the
payments for the course of the loan, he would owe the
$300 principal, plus ten separate finance charges, each
equaling 30 percent of the borrower’s remaining
balance. Altogether, a borrower following the default
plan would pay $975 instead of $390.
2
We agree with the Commission that the Loan Note
was deceptive because it did not accurately disclose
the loan’s terms. Most prominently, the TILA box
suggested that the value reported as the “total of
payments”—described further as the “amount you will
have paid after you have made the scheduled
payment”—would equal the full cost of the loan. In
reliance on this information, a reasonable consumer
might expect to pay only that amount. But as we have
described, under the default terms of the loan, a
consumer would be required to pay much more.
Indeed, under the terms that Tucker actually
enforced, borrowers had to perform a series of
affirmative actions in order to decline to renew the
loan and thus pay only the amount reported in the
TILA box.
The Loan Note’s fine print does not reasonably
clarify these terms because it is riddled with still more
misleading statements. First, the explanation of the
process of declining to renew the loan is buried several
lines below where the option to decline is first
introduced. Second, nothing in the fine print explicitly
states that the loan’s “renewal” would be the
automatic consequence of inaction. Instead, it
misleadingly says that such renewal must be
“accepted,” which seems to require the borrower to
perform some affirmative action. Third, between the
sentence that introduces the decline-to-renew option
and the sentences that explain the costly

15a
consequences of renewal, there is a long and irrelevant
sentence about what happens if a pay date falls on a
weekend or holiday. Thus, the fine print’s oblique
description of the loan’s terms fails to cure the
misleading “net impression” created by the TILA box.
3
Tucker suggests, however, that the Loan Note is
not deceptive because it is “technically correct.” But
the FTC Act’s consumer-friendly standard does not
require only technical accuracy. In Cyberspace, we
held that a solicitation was deceptive even though “the
fine print notices . . . on the reverse side of the”
solicitation contained “truthful disclosures.” 453 F.3d
at 1200. Indeed, Cyberspace held that it was irrelevant
that “most consumers [could] understand the fine
print on the back of the solicitation when that
language [was] specifically brought to their attention.”
Id. at 1201. Just as in Cyberspace, consumers acting
reasonably under the circumstances—here, by looking
to the terms of the Loan Note to understand their
obligations—likely could be deceived by the
representations made there. Therefore, we agree with
the Commission that the Loan Note was deceptive.
B
Tucker further contends that the district court
erred because its narrow focus on the Loan Note fails
to capture the “net impression” on consumers. The
district court found that “any facts other than the
terms of the Loan Note . . . and their presentation in
the document are immaterial to a summary judgment
determination.” But according to Tucker, the court
should have considered all of his loan disclosures and
all of his communications regarding those disclosures.
Tucker’s argument wrongly assumes that nondeceptive business practices can somehow cure the

16a
deceptive nature of the Loan Note. The Act prohibits
deceptive “acts or practices,” 15 U.S.C. § 45(a)(1)
(emphasis added), so it gives the Commission
flexibility to bring suit either for particular misleading
representations, or for generally deceptive business
practices. Cf. FTC v. Sperry & Hutchinson Co., 405
U.S. 233, 243 (1972) (“Congress [did not intend] to
confine the forbidden methods to fixed and unyielding
categories.” (citation omitted)). In this case, the
Commission must show only that a specific
“representation” was “likely to mislead.” Stefanchik,
559 F.3d at 928; see also Cyberspace, 453 F.3d at
1200–01 (basing liability on deceptive solicitations
without resorting to defendant’s other practices);
Removatron Int’l Corp. v. FTC, 884 F.2d 1489, 1496–
97 (1st Cir. 1989) (“Each advertisement must stand on
its own merits; even if other advertisements contain
accurate, non-deceptive claims, a violation may occur
with respect to the deceptive ads.”). Under this
standard, the district court’s focus on the Loan Note—
that is, on this particular deceptive “representation”—
was perfectly permissible.
C
Tucker next argues that summary judgment was
also inappropriate because he demonstrated a
genuine issue of material fact by presenting
affirmative evidence from which a jury could find in
his favor. Tucker cites a host of evidence in support of
this point, but only two of his arguments merit our
attention.
First, Tucker claims that the Commission
introduced evidence that “contradicted” its theory of
deception because four deposed consumers “had not
read the loan disclosures” and “understood the
disclosures upon reading them at their depositions.”
Thus, Tucker argues that there is some evidence that

17a
consumers may not have regularly read the
supposedly deceptive Loan Note. And if customers
were not likely to read the Loan Note in the first place,
the argument goes, then it cannot be likely to deceive
them.
But Tucker once again misunderstands the
consumer- friendly standards of § 5 of the FTC Act.
We have held that “[p]roof of actual deception is
unnecessary to establish a violation,” and thus Tucker
can be liable if the Loan Note itself “possess[es] a
tendency to deceive.” Trans World Accounts, Inc., 594
F.2d at 214. Thus, we held in Cyberspace that the
terms of a solicitation alone were deceptive such that
“no reasonable factfinder could conclude that the
solicitation was not likely to deceive consumers acting
reasonably under the circumstances.” 453 F.3d at
1201. True enough, we also stated in Cyberspace that
proof of actual deception is “highly probative,” but we
did so only to “bolster[]” our conclusion that the
solicitation itself “created [a] deceptive impression.”
Id. at 1200–01. In this case, however, Tucker points to
no evidence that consumers who did read the Loan
Note understood its terms. Tucker therefore fails to
show that a genuine issue of material fact exists.
Second, Tucker claims that the expert testimony
offered by Dr. David Scheffman demonstrated an
“absence of confusion or deception.” Tucker’s counsel
retained Dr. Scheffman, who earned his doctorate in
economics at the Massachusetts Institute of
Technology, to “opine on whether the economic
evidence regarding borrower behavior” was consistent
with the Commission’s theory of liability. He designed
his analysis “to test for any material difference in the
behavior of inexperienced consumers that would
indicate their understanding of the loan terms was
different from highly experienced consumers.” In

18a
other words, he wanted to determine whether firsttime borrowers behaved like those who took out
multiple loans. If first-time borrowers behaved just
like the repeat borrowers, Dr. Scheffman reasoned,
then the first-time borrowers could not have been
misled about the loan terms. Because there was a
“near- perfect . . . correlation between payoff behavior”
among borrowers, Dr. Scheffman concluded that the
data were “inconsistent with the allegation that
borrowers were misled.”
But Dr. Scheffman’s reasoning begs the question.
Consistent payoff patterns among classes of
consumers show, at best, that the consumers were
similarly aware of their obligations. While Dr.
Scheffman concludes that first- time borrowers were
just as well informed as the repeat ones, it is equally
plausible that the repeat borrowers were just as
confused as those taking out their first loans. As the
district court noted, the expert’s analysis simply
assumed that repeat borrowers “plainly understood
the loan terms.” He did not, however, offer any
evidence “that repeat borrowers across loan portfolios
knew they were dealing with the same enterprise.” To
survive summary judgment, Tucker must identify
some specific factual disagreement that could lead a
fact-finder to conclude that the Loan Note was not
likely to deceive. See Stefanchik, 559 F.3d at 929. Dr.
Scheffman’s testimony offers only speculative analysis
that could cut either way. See McIndoe v. Huntington
Ingalls Inc., 817 F.3d 1170, 1173 (9th Cir. 2016)
(“Arguments based on conjuncture or speculation are
insufficient . . . .” (internal quotation marks omitted)).

19a
Therefore, Dr. Scheffman’s testimony does not raise a
genuine issue of material fact. 4
D
We conclude that the Loan Note was likely to
deceive a consumer acting reasonably under the
circumstances. We are therefore satisfied that the
district court did not err in entering summary
judgment against Tucker as to the liability phase.
III
Tucker next challenges the relief phase
determination that he must pay the Commission
$1.27 billion. He urges that the district court did not
have the power to order equitable monetary relief
under § 13(b) of the FTC Act. Alternatively, he argues
that the order to pay $1.27 billion overstates his
unjust gains.
A
Tucker
contends
that
the
Commission
“improperly use[d] Section 13(b) to pursue penal
monetary relief under the guise of equitable
authority.” After all, he points out, § 13(b) provides
only that district courts may enter “injunction[s].” 15
U.S.C. § 53(b). According to Tucker, an order to pay
We need not address Tucker’s objections that the admission of
the Commission’s consumer complaint database violated Federal
Rule of Evidence 807 and Federal Rule of Civil Procedure 37.
Such evidence was irrelevant to the district court’s determination
that the Loan Note itself was deceptive. Even if Tucker were
correct, any error is harmless. See Dowdy v. Metro. Life Ins. Co.,
890 F.3d 802, 807 (9th Cir. 2018). Likewise, we need not address
the Commission’s alternative theory that Tucker is liable because
he “independently violated the Truth in Lending Act.” The finding
of liability under § 5 of the FTC Act is independently sufficient to
affirm the judgment against Tucker.

4

20a
“equitable monetary relief” is not an injunction, so he
concludes that the statute does not authorize the
court’s order.
Tucker’s argument has some force, but it is
foreclosed by our precedent. We have repeatedly held
that § 13 “empowers district courts to grant any
ancillary relief necessary to accomplish complete
justice, including restitution.” FTC v. Commerce
Planet, Inc., 815 F.3d 593, 598 (9th Cir. 2016)
(internal quotation marks omitted); see also FTC v.
Pantron I Corp., 33 F.3d 1088, 1102 (9th Cir. 1994)
(“[T]he authority granted by section 13(b) . . . includes
the power to order restitution.”). Our precedent thus
squarely forecloses Tucker’s argument.
Tucker responds that we should revisit Commerce
Planet in light of the Supreme Court’s recent decision
in Kokesh v. SEC, 137 S. Ct. 1635 (2017). In Kokesh,
the Court determined that a claim for “disgorgement
imposed as a sanction for violating a federal securities
law” was a “penalty” within the meaning of the federal
catch-all statute of limitations. 137 S. Ct. at 1639.
Much like the equitable monetary relief at issue in
this case, disgorgement in the securities-enforcement
context is “a form of restitution measured by the
defendant’s wrongful gain.” Id. at 1640 (citing
Restatement (Third) of Restitution and Unjust
Enrichment § 51 cmt. A, at 204 (2010)); see also
Commerce Planet, 815 F.3d at 599 (describing
restitution under § 13(b) as the power to “deprive
defendants of their unjust gains”). The Court held that
disgorgement orders are penalties because they “go
beyond compensation, are intended to punish, and
label defendants wrongdoers as a consequence of
violating public laws.” Id. at 1645 (internal quotation
marks omitted).

21a
Tucker suggests that Kokesh severs the line of
reasoning that links “injunctions” to “equitable
monetary relief.” We said in Commerce Planet, for
instance, that by “authorizing the issuance of
injunctive relief,” the statute “invoked the court’s
equity jurisdiction.” 815 F.3d at 598 (citing Porter v.
Warner Holding Co., 328 U.S. 395 (1946)). Therefore,
we concluded, § 13(b) “carries with it the inherent
power to deprive defendants of their unjust gains from
past violations, unless the Act restricts that
authority.” Id. at 599. Tucker contends, however, that
Kokesh’s reasoning compels the conclusion that
restitution under § 13(b) is in effect a penalty—not a
form of equitable relief.
A three-judge panel may not overturn prior circuit
authority unless it is “clearly irreconcilable with the
reasoning or theory of intervening higher authority,”
Miller v. Gammie, 335 F.3d 889, 893 (9th Cir. 2003)
(en banc), and such threshold is not met here. First,
Kokesh itself expressly limits the implications of the
decision: “Nothing in this opinion should be
interpreted as an opinion on whether courts possess
authority to order disgorgement in SEC enforcement
proceedings.” Kokesh, 137 S. Ct. at 1642 n.3. Second,
Commerce Planet expressly rejected the argument
that § 13(b) limits district courts to traditional forms
of equitable relief, holding instead that the statute
allows courts “to award complete relief even though
the decree includes that which might be conferred by
a court of law.” Commerce Planet, 815 F.3d at 602
(internal quotation marks omitted). Because Kokesh
and Commerce Planet are not clearly irreconcilable,
we remain bound by our prior interpretation of § 13(b).

22a
B
Tucker next argues that the district court abused
its discretion in calculating the amount of the award.
Under our case law, we apply a burden-shifting
framework. See Commerce Planet, 815 F.3d at 603–04.
The Commission “bears the burden of proving that the
amount it seeks in restitution reasonably
approximates the defendant’s unjust gain,” which is
measured by “the defendant’s net revenues . . . , not by
the defendant’s net profits.” Id. at 603. If the
Commission makes such showing, the defendant must
show that the Commission’s approximation
“overstate[s] the amount of the defendant’s unjust
gains.” Id. at 604. Any “risk of uncertainty at this
second step falls on the wrongdoer.” Id. (internal
quotation marks omitted).
Tucker argues that the $1.27 billion judgment
overstates his unjust gains. The court arrived at such
figure based on the calculations of one of the
Commission’s analysts. The analyst relied on data
from Tucker’s loan management software to
determine how much money Tucker received from
consumers in excess of the principal disbursed plus
the initial 30-percent finance charge. This surplus
represented the amount of money that Tucker had
received over-and- above the amount disclosed in the
TILA box, which the Commission argued represented
Tucker’s ill-gotten gains. The district court agreed, so
the final sum it ordered Tucker to pay was calculated
as follows: the sum of each consumer’s payments to
Tucker, minus the sum of each consumer’s “total of
payments” as disclosed in the TILA box, and minus
certain other payments already made or to be made by
other defendants.
Tucker responds that the district court erred
because it ignored evidence of non-deception that

23a
should have reduced the award. Once again, Tucker
reiterates the argument that repeat customers could
not have been misled by the loan’s terms. Therefore,
he concludes, these customers should have been
excluded from the calculation. As we said above,
however, Tucker has not pointed to specific evidence
that indicates one way or another whether repeat
customers were actually deceived. See supra Part II.C.
Further, Tucker has not offered “a reliable method of
quantifying what portion of the consumers who
purchased [the product] did so free from deception.”
Commerce Planet, 815 F.3d at 604. Therefore, the
district court did not abuse its discretion when
calculating the amount it ordered Tucker to pay. 5
IV
Finally, Tucker challenges the district court’s
decision to enjoin him from engaging in consumer
lending. The text of § 13(b) limits injunctive relief to
“proper cases,” 15 U.S.C. § 53(b), and Tucker argues
that the “proper case” language confines district
courts to cases of “routine fraud.” But we rejected this
very argument in FTC v. Evans Products Co., 775 F.2d
The district court’s relief order also required Kim Tucker and
Park 269 to disgorge more than $27 million because Tucker had
“diverted millions of dollars” from himself to them. Kim Tucker
and Park 269 challenge this order. We have held that the FTC
Act gives district courts the power to reach fraudulently obtained
property “in the hands of any subsequent holder,” unless “the
transferee purchases ill-gotten assets for value, in good faith, and
without actual or constructive notice of the wrongdoing.” FTC v.
Network Servs. Depot, Inc., 617 F.3d 1127, 1141– 42 (9th Cir.
2010) (internal quotation marks omitted). Here, the district court
found that Kim Tucker and Park 269 did not provide any
consideration for their money transfers from Tucker. They do not
dispute this core finding, and therefore we hold that the district
court did not err when it ordered Kim Tucker and Park 269 to
disgorge ill-gotten gains.
5

24a
1084, 1086–87 (9th Cir. 1985). We thus cannot find
fault with the district court’s decision to enter a
permanent injunction.
V
The judgment of the district court is AFFIRMED.

25a
APPENDIX
The following is an example of the Loan Note:

26a
O’SCANNLAIN, Circuit Judge, specially concurring,
joined by BEA, Circuit Judge:
I write separately to call attention to our circuit’s
unfortunate interpretation of the Federal Trade
Commission Act. We have construed § 13(b)’s
authorization of “injunction[s]” to empower district
courts to compel defendants to pay monetary
judgments styled as “restitution.” See FTC v.
Commerce Planet, Inc., 815 F.3d 593, 598 (9th Cir.
2016); FTC v. Pantron I Corp., 33 F.3d 1088, 1102 (9th
Cir. 1994); FTC v. H.N. Singer, Inc., 668 F.2d 1107,
1113 (9th Cir. 1982).
I respectfully suggest that such interpretation is
no longer tenable.
Because the text and structure of the statute
unambiguously foreclose such monetary relief, our
invention of this power wrests from Congress its
authority to create rights and remedies. And the
Supreme Court’s recent decision in Kokesh v. SEC,
137 S. Ct. 1635 (2017), undermines a premise in our
reasoning: that restitution under § 13(b) is an
“equitable” remedy at all. Because our interpretation
wrongly authorizes a power that the statute does not
permit, we should rehear this case en banc to
relinquish what Congress withheld.
I
A
I would begin (and end) with the statute’s text.
Section 13(b) states that “the Commission may seek,
and after proper proof, the court may issue, a
permanent injunction.” 15 U.S.C. § 53(b) (emphasis
added). An injunction is “a judicial process whereby a
party is required to do a particular thing, or to refrain
from doing a particular thing.” 2 J. Story,

27a
Commentaries on Equity Jurisprudence § 1181, at 549
(14th rev. ed. 1918); see also 1 D. Dobbs, Law of
Remedies § 1.1, at 7 (2d ed. 1993) (similar). Injunctions
might either “prevent violation of rights,” or compel
the defendant to “restore the plaintiff to rights that
have already been violated.” 1 Dobbs, § 2.9(2), at 227.
But an order to pay money “as reparation for injury
resulting from breach of legal duty” is essentially a
damages remedy—not a form of “specific relief” like an
injunction. Bowen v. Massachusetts, 487 U.S. 879,
913–14 (1988) (Scalia, J., dissenting). Indeed, any
other interpretation would be absurd: if “injunction”
included court orders to pay monetary judgments,
then “a statutory limitation to injunctive relief would
be meaningless, since any claim for legal relief can,
with lawyerly inventiveness, be phrased in terms of
an injunction.” Great-West Life & Annuity Ins. Co. v.
Knudson, 534 U.S. 204, 211 n.1 (2002). If such text
were not plain enough, the rest of § 13(b) reaffirms
that “injunction” means only “injunction.” The statute
states, for example, that the Commission must believe
that a person “is violating” or “is about to violate” the
Act in order to request injunctive relief. 15 U.S.C. §
53(b)(1). Thus, § 13(b) anticipates that a court may
award relief to prevent an ongoing or imminent
harm—but not to deprive a defendant of “unjust gains
from past violations.” Commerce Planet, 815 F.3d at
599 (emphasis added). Indeed, § 13(b) expressly
instructs courts to consider the traditional
prerequisites for preliminary injunctive relief. The
court must “weigh[] the equities,” consider the
Commission’s “likelihood of ultimate success,” and
determine whether the preliminary injunction is “in
the public interest.” 15 U.S.C. § 53(b); see also Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008)
(listing these requirements along with “irreparable
harm”). Further, the statute expressly dispenses with

28a
the normal rule that a plaintiff must post a bond as
security before the district court will grant
preliminary relief. Compare 15 U.S.C. § 53(b) (“[A]
preliminary injunction may be granted without bond .
. . .”), with Fed. R. Civ. P. 65(c) (requiring plaintiffs
seeking preliminary injunctions to give “security”).
Section 13(b) thus not only provides for injunctions,
but it also references the constellation of legal rules
that make sense only with reference to such relief.
Further, “injunction” cannot reasonably be
interpreted to authorize other forms of equitable
relief, because Congress would have said so if it did.
For example, the Employee Retirement Income
Security Act (ERISA) authorizes litigants to seek both
“to enjoin any act or practice” and “other appropriate
equitable relief.” 29 U.S.C. § 1132(a)(3). Indeed, in the
Dodd-Frank Act, Congress felt compelled to amend
the Commodity Exchange Act to allow courts to
impose “equitable remedies including . . . restitution .
. . [and] disgorgement of gains”—even though the
statute already allowed it to impose “a permanent or
temporary injunction.” Dodd-Frank Wall Street
Reform and Consumer Protection Act, Pub. L. No. 111203, § 744, 124 Stat. 1376, 1735 (2010) (codified at 7
U.S.C. § 13a-1). Similar examples abound, as a brief
glance through the Statutes at Large shows. See
Helping Families Save Their Homes Act of 2009, Pub.
L. No. 111-22, § 201, 123 Stat. 1632, 1639 (codified at
15 U.S.C. § 1639a) (stating that certain persons “shall
not be subject to any injunction, stay, or other
equitable relief”); Veterans’ Benefits Improvement Act
of 2008, Pub. L. No. 110-389, § 315, 122 Stat. 4145,
4167 (codified at 38 U.S.C. § 4323(e)) (“The court shall
use . . . its full equity powers, including temporary or
permanent injunctions, temporary restraining orders,
and contempt orders”); Class Action Fairness Act of

29a
2005, Pub. L. No. 109-2, § 3(a), 119 Stat. 4, 6 (codified
at 28 U.S.C. § 1712) (“equitable relief, including
injunctive relief”).
If Congress could have used a broader phrase but
“chose instead to enact more restrictive language,”
then “we are bound by that restriction.” W. Va. Univ.
Hosps., Inc. v. Casey, 499 U.S. 83, 99 (1991).
Interpreting § 13(b)’s authorization of “injunctions” to
empower courts to award so-called equitable
monetary relief is, to say the least, strained.
B
1
Such sensible interpretation—that “injunction”
means only “injunction”—makes good sense in the
context of the “overall statutory scheme.” King v.
Burwell, 135 S. Ct. 2480, 2490 (2015) (internal
quotation marks omitted). While § 13(b) empowers the
Commission to stop imminent or ongoing violations,
an entirely different provision of the FTC Act allows
the Commission to collect monetary judgments for
past misconduct. In particular, § 19 authorizes the
Commission to seek “such relief as the court finds
necessary to redress injury to consumers,” which “may
include, but shall not be limited to, rescission or
reformation of contracts, the refund of money or return
of property, the payment of damages, and public
notification respecting . . . [such] unfair or deceptive
act or practice.” 15 U.S.C. § 57b(b) (emphasis added).
Read together, §§ 13(b) and 19 give the
Commission two complementary tools—one forwardlooking and preventive, the other backward-looking
and remedial—to satisfy its statutory mandate.
Injunctive relief in § 13(b) therefore functions as a
simple stop-gap measure that allows the Commission
to act quickly to prevent harm. Indeed, the

30a
congressional findings regarding § 13(b) state that the
“purpose of th[e] Act” is to “[e]nsure prompt
enforcement of [the FTC Act] by granting statutory
authority . . . to seek preliminary injunctive relief.”
Trans-Alaska Pipeline Authorization Act, § 408(b),
Pub. L. No. 93-153, 87 Stat. 576, 591 (1973).
Buttressing § 13(b)’s preventive relief, § 19 allows the
Commission later to seek retrospective relief to punish
or to remediate past violations. 15 U.S.C. § 57b; see
FTC v. Figgie Int’l, Inc., 994 F.2d 595, 603 (1993) (“The
redress remedy [in § 19] relates to past conduct”). Our
misguided interpretation of § 13(b), therefore,
fundamentally misunderstands § 13(b)’s function
within the FTC Act’s “overall statutory scheme.”
Burwell, 135 S. Ct. at 2490.
Worse still, awarding monetary relief under §
13(b) circumvents § 19’s procedural protections.
Before the Commission can collect ill-gotten gains
under § 19, it must surmount one of two procedural
hurdles. First, it may prove to the district court that
the defendant “violate[d] any rule” promulgated
through the Commission’s rulemaking procedures. 15
U.S.C. § 57b(a)(1); see also id. § 57a (granting the
Commission’s rulemaking authority). If the
Commission has not promulgated such a rule,
however, it must first pursue an administrative
adjudication, issue a “final cease and desist order,”
and then prove to the district court that the
defendant’s conduct was such that a “reasonable man”
would know it was “dishonest or fraudulent.” Id. §
57b(a)(2); see also id. § 45 (granting the Commission
authority to issue cease and desist orders). Thus,
before the Commission can make someone pay, it
must have already resorted to the FTC Act’s
administrative processes.

31a
Doubtless, Congress included § 19’s procedural
rules with good reason. “No statute yet known pursues
its stated purpose at all costs,” Henson v. Santander
Consumer USA Inc., 137 S. Ct. 1718, 1725 (2017)
(alterations and internal quotation marks omitted),
and § 19 prevents the Commission from imposing
significant monetary burdens simply by bringing a
lawsuit in federal court. Instead, § 19 requires the
Commission either to promulgate rules that define
unlawful practices ex ante, or first to prosecute a
wrongdoer in an administrative adjudication that
culminates in a cease and desist order. Indeed, the
very same statute that included § 19 significantly
expanded both the Commission’s rulemaking
authority and its authority to seek civil penalties
through § 5’s cease-and-desist procedures. See
MagnusonMoss
Warranty—Federal
Trade
Commission Improvement Act, tit. II, §§ 202, 205,
Pub. L. No. 93-637, 88 Stat. 2183, 2193, 2200 (1975)
(codified as amended 15 U.S.C. §§ 45, 57a). Our
circuit’s flawed interpretation of § 13(b) in Commerce
Planet therefore wrongly allows the Commission to
avoid the administrative processes that Congress
directed it to follow.
2
Commerce Planet’s attempt to reconcile its
interpretation of § 13(b) with § 19 is entirely
unpersuasive. The decision suggests that § 19
“precludes a court from awarding damages” under §
13(b), but “does not eliminate the court’s inherent
equitable power to order payment of restitution.” 815
F.3d at 599 (emphasis added). But Commerce Planet’s
interpretation of § 13(b) fails to give unique effect to
the series of remedies besides damages that § 19
authorizes. Specifically, § 19 expressly allows federal
courts to impose certain equitable remedies like

32a
“refund of money or return of property” and the
“rescission or reformation of contracts.” 15 U.S.C. §
57b(b); see 1 D. Dobbs, § 4.3(1), at 587 (characterizing
“rescission in equity” and “reformation of
instruments” as “important equitable remedies”);
Samuel L. Bray, The System of Equitable Remedies,
63 UCLA L. Rev. 530, 555–58 (2016) (same).
According to Commerce Planet, however, these very
same remedies were already available under § 13(b)
when Congress subsequently enacted § 19. 1 Because
Commerce Planet’s interpretation renders § 19 almost
entirely redundant, it violates the “cardinal rule that,
if possible, effect shall be given to every clause and
part [of] a statute.” D. Ginsberg & Sons, Inc. v. Popkin,
285 U.S. 204, 208 (1932).
II
I would end the inquiry here, for “[w]hen the
words of a statute are unambiguous,” the “judicial
inquiry is complete.” Conn. Nat’l Bank v. Germain,
503 U.S. 249, 254 (1992) (internal quotation marks
omitted). But even assuming arguendo that the word
“injunction” authorizes “equitable relief,” that still
does not answer the question.
The Supreme Court has held that statutes
authorizing equitable relief limit federal courts only
Congress passed § 13(b) in 1973 and § 19 in 1975. See TransAlaska Pipeline Authorization Act, § 408(F), Pub. L. No. 93-153,
87 Stat. 576, 592 (1973) (codified as amended 15 U.S.C. § 53(b));
Magnuson-Moss
Warranty—Federal
Trade
Commission
Improvement Act, tit. II, § 206, Pub. L. No. 93-637, 88 Stat. 2183,
2193 (1975) (codified as amended 15 U.S.C. § 57b); see also Peter
C. Ward, Restitution for Consumers Under the Federal Trade
Commission Act: Good Intentions or Congressional Intentions, 41
Am. U. L. Rev. 1139 (1992) (reviewing the legislative history of
§§ 13(b) and 19).
1

33a
“to those categories of relief that were typically
available in equity during the days of the divided
bench.” Montanile v. Bd. of Trs. of Nat’l Elevator
Indus. Health Benefit Plan, 136 S. Ct. 651, 657 (2016)
(internal quotation marks omitted). 2 And as the
Supreme Court has noted, “not all relief falling under
the rubric of restitution is available in equity.” GreatWest, 534 U.S. at 212; see also Restatement (Third) of
Restitution and Unjust Enrichment § 4, cmt. a (2011)
(“The most widespread error is the assertion that a
claim in restitution or unjust enrichment is by its
nature equitable rather than legal.”). In this case,
because restitution under § 13(b) is not a form of
equitable relief, I would conclude that we lack the
authority to impose it.
A
Under the Supreme Court’s decision in Kokesh v.
SEC, 137 S. Ct. 1635 (2017), restitution under § 13(b)
would appear to be a penalty—not a form of equitable
relief. In Kokesh, the Court held that SEC
disgorgement, which it described as “a form of
restitution measured by the defendant’s wrongful
gain,” is a penalty. Id. at 1640 (quoting Restatement
(Third) of Restitution and Unjust Enrichment § 51,
cmt. a, at 204 (2011)). The Court described three
characteristics that render disgorgement a penalty.
These cases have arisen because the Court must interpret
ERISA’s authorization of “other appropriate equitable relief.” 29
U.S.C. § 1132(a)(3). See generally Samuel L. Bray, The Supreme
Court and the New Equity, 68 Vand. L. Rev. 997, 1014–23 (2015)
(discussing the Court’s use of history to demarcate equitable and
legal remedies). But “statutes addressing the same subject
matter” should be construed in pari materia, Wachovia Bank v.
Schmidt, 546 U.S. 303, 315 (2006), so the Court’s analysis in
these ERISA cases should apply whenever we must determine
which equitable remedies a statute authorizes.
2

34a
First, it “is imposed by the courts as a consequence for
violating . . . public laws.” Id. at 1643. Second,
disgorgement is “punitive” rather than “remedial.” Id.
at 1644. With respect to this second characteristic, the
Court elaborated that it is “ordered without
consideration of a defendant’s expenses that reduced
the amount of illegal profit,” so it “does not simply
restore the status quo [but] leaves the defendant
worse off.” Id. at 1644–45. Third, disgorgement is “not
compensatory” because some “funds are dispersed
[sic] to the United States Treasury.” Id. at 1644.
Restitution under § 13(b) shares each of these
three characteristics with SEC disgorgement. First, in
Commerce Planet, we noted that the Commission
sought “to enforce a regulatory statute like § 13(b),”
rather than to resolve a “private controversy.” 815
F.3d at 602 (internal quotation marks omitted). And
like suits for disgorgement in Kokesh, suits under §
13(b) “may proceed even if victims do not support or
are not parties to the prosecution.” Kokesh, 137 S. Ct.
at 1643. Second, restitution under § 13(b) is “punitive”
rather than “remedial.” Id. at 1643–44. Commerce
Planet holds that the wrongdoer’s unjust gains must
be measured by “net revenues” rather than “net
profits.” 815 F.3d at 603. Thus, restitution under §
13(b)—just like SEC disgorgement—“does not simply
restore the status quo [but] leaves the defendant
worse off.” Kokesh, 137 S. Ct. at 1645. Third, it is not
compensatory. Funds can be paid to victims, but they
need not be. See FTC v. Pantron I Corp., 33 F.3d 1088,
1103 n.34 (1994). In this case, for instance, the
Commission was instructed to give refunds to
consumers, then to use any remaining money in a way
“reasonably related to the Defendants’ practices
alleged in the complaint,” then to deposit the balance
in “the U.S. Treasury as disgorgement.”

35a
Restitution under § 13(b) therefore “bears all the
hallmarks of a penalty.” Kokesh, 137 S. Ct. at 1644. As
the Supreme Court has already stated, “[a] civil
penalty was a type of remedy at common law that
could only be enforced in courts of law.” Tull v. United
States, 481 U.S. 412, 422 (1987). Because penalties
were not “available in equity during the days of the
divided bench,” Montanile, 136 S. Ct. at 657 (internal
quotation marks omitted), we should not be able to
impose such penalty here—even if we (wrongly)
assume that § 13(b)’s use of “injunction” authorizes
“equitable relief.”
B
Nor does restitution under § 13(b) have much
resemblance to equitable forms of restitution.
Historically, courts sitting in equity could impose a
series of distinct restitutionary remedies, including
the “constructive trust,” the “equitable lien,”
“subrogation,” “accounting for profits,” “rescission in
equity,” and “reformation of instruments.” 1 Dobbs, §
4.3(1), at 587; see also Samuel L. Bray, The System of
Equitable Remedies, 63 UCLA L. Rev. 530, 553–57
(2016) (similar). The general thread connecting these
remedies was that they did not “impose personal
liability on the defendant, but . . . restore[d] to the
plaintiff particular funds or property in the
defendant’s possession.” Great- West, 534 U.S. at 214
(emphasis added). The constructive trust, for
instance, is “only used when the defendant has a
legally recognized right in a particular asset”—e.g., a
“trademark” or a “fund of money like a bank account.”
1 Dobbs, § 4.3(2), at 591. But if such property is
“dissipated,” then a plaintiff may not “enforce a
constructive trust of or an equitable lien upon other
property of the defendant.” Great- West, 534 U.S. 213–

36a
14 (quoting Restatement of Restitution § 215, cmt. a,
at 867 (1937)) (brackets omitted).
Commerce Planet, however, refused to limit
restitution under § 13(b) to the recovery of
“identifiable assets in the defendant’s possession.” 815
F.3d at 601. But without such a tracing requirement,
the remedy authorized by Commerce Planet loses its
resemblance to the traditional forms of equitable
restitution. In this case, for instance, the
Commission’s complaint makes no effort to identify a
specific fund that the defendant wrongfully obtained.
Therefore, the requested relief is indistinguishable
from a request “to obtain a judgment imposing a
merely personal liability upon the defendant to pay a
sum of money”— essentially an “action[] at law.”
Great-West, 534 U.S. at 213 (quoting Restatement of
Restitution § 160, cmt. a, at 641–42 (1937)).
The only traditional equitable remedy to which
restitution under § 13(b) is plausibly analogous is the
“accounting for profits.” Such remedy “order[s] an
inquiry into the defendant’s handling of money or
property, usually to ascertain the defendant’s gains so
they may be paid to . . . the plaintiff.” Bray, The
System of Equitable Remedies, supra, at 553; see also
Great-West, 534 U.S. at 214 n.2 (discussing accounting
for profits). An accounting for profits also dispenses
with the requirement that the plaintiff “seek a
particular res or fund of money.” 1 Dobbs, § 4.3(1), at
588. Nevertheless, restitution under § 13(b) is still
inapposite. Generally, a suit for an accounting was
proper only if (1) “the legal remedy was inadequate
because of the complexity of the accounts” or (2) “there
was a pre-existing equitable duty to account” because
of some fiduciary relationship. 1 Dobbs, § 4.3(5), at
609; see also 4 S. Symons, Pomeroy’s Equity
Jurisprudence § 1421, at 1077–78 (5th ed. 1941).

37a
Neither is true here: the borrowers defrauded by
Tucker could establish precisely how much they lost
simply by producing bank statements, and the
defendant was not in a “fiduciary relationship” with
such borrowers. More fundamentally, however, the
Commission cannot possibly claim that it seeks to
recover “monies owed by the fiduciary or other
wrongdoer . . . which in equity and good conscience
belong[] to the plaintiff”—here, the Commission. 1
Dobbs, § 4.3(b), at 608 (emphasis added). In sum,
restitution under § 13(b) bears little resemblance to
historically available forms of equitable relief, and
therefore we should lack the authority to impose it.
C
Commerce Planet wholly avoided the historical
analysis required by cases like Great-West and
Montanile. Relying on the Supreme Court’s decision in
Porter v. Warner Holding Co., 328 U.S. 395, 398
(1946), we reasoned that § 13(b)’s use of the word
“injunction” invoked the “the court’s equity
jurisdiction.” 815 F.3d at 598. Such equity
jurisdiction, we continued, brought with it “all the
inherent equitable powers of the District Court” to
afford “complete rather than truncated justice.” Id. at
598–99 (internal quotation marks omitted). According
to Commerce Planet, then, § 13(b) granted a broader
set of powers than what is authorized in statutes (like
ERISA) that use the phrase “other appropriate
equitable relief.” Id. at 602. Thus, we concluded that
the “interpretive constraints” that guided the
Supreme Court in cases like Great-West and
Montanile did not control our construction of § 13(b).
Id.
But such reasoning conflicts with the Supreme
Court’s repeated admonitions that the equitable
powers of federal courts must be hemmed in by

38a
tradition. For instance, in Grupo Mexicano de
Desarrollo, S.A. v. All. Bond Fund, Inc., the Court
interpreted the scope of the equitable jurisdiction of
the federal courts under the Judiciary Act of 1789. 527
U.S. 308 (1999). There, the Supreme Court squarely
rejected the dissenting Justices’ argument that the
“grand aims of equity” allowed “federal courts [to] rely
on their flexible jurisdiction in equity to protect all
rights and do justice to all concerned.” Id. at 342
(Ginsburg, J., dissenting) (internal quotation marks
omitted). In “the federal system,” the majority
reasoned, “that flexibility is confined within the broad
boundaries of traditional equitable relief.” Id. at 322.
Indeed, the Court has reiterated similar concerns in
other recent cases. E.g., North Carolina v. Covington,
137 S. Ct. 1624, 1625 (2017) (“Relief in redistricting
cases is fashioned in the light of well-known principles
of equity.” (internal quotation marks omitted)); eBay
Inc. v. MercExchange, LLC, 547 U.S. 388, 394 (2006)
(“[Equitable] discretion must be exercised consistent
with traditional principles of equity, in patent
disputes no less than in other cases governed by such
standards.”). Such cases show that we may not simply
incant “equity” and thereby conjure the boundless
power to afford “complete rather than truncated
justice.”
III
I acknowledge that several other federal courts
have agreed with our circuit’s interpretation of § 13(b),
but their numbers do not persuade me that they are
correct on the law, especially in light of Kokesh. The
only decisions that engage with the issue at any length
rely on the same faulty reasoning as Commerce
Planet. See FTC v. Ross, 743 F.3d 886, 890– 92 (4th
Cir. 2014); FTC v. Gem Merch. Corp., 87 F.3d 466,
468–70 (11th Cir. 1996); FTC v. Security Rare Coin &

39a
Bullion Corp., 931 F.2d 1312, 1314–15 (8th Cir. 1991);
FTC v. Amy Travel Serv., Inc., 875 F.2d 564, 571–72
(7th Cir. 1989). 3 But none of these decisions cogently
explains how restitution under § 13(b) fits with § 19.
None undertakes the historical analysis that
Montanile and Great-West seem to require. And in any
event, the Court’s decision in Kokesh— which casts
serious doubt on restitution’s equitable pedigree—
postdates every single one of them. These past errors,
even if common, do not justify our continued disregard
of the statute’s text and the Supreme Court’s related
precedent.
IV
Just last year, Justice Kennedy explained in
Ziglar v. Abbasi that the Supreme Court once
“followed a different approach to recognizing implied
causes of action than it follows now.” 137 S. Ct. 1843,
1855 (2017). Under this “ancien regime,” the Court
described, it was assumed “to be a proper judicial
function to provide such remedies as [were] necessary
to make effective a statute’s purpose.” Id. (internal
quotation marks omitted). Since those days, however,
The remaining decisions uncritically adopt the analysis of the
other federal courts. See FTC v. Bronson Partners, LLC, 654 F.3d
359, 365 (2d Cir. 2011); FTC v. Magazine Sols., LLC, 432 F. App’x
155, 158 n.2 (3d Cir. 2011) (unpublished); FTC v. Direct Mktg.
Concepts, Inc., 624 F.3d 1, 15 (1st Cir. 2010); FTC v. Freecom
Commc’ns, Inc., 401 F.3d 1192, 1202 n.6 (10th Cir. 2005). And
though the Fifth Circuit reasoned that § 13(b) invoked the
district court’s “inherent equitable jurisdiction,” the actual
remedy in the case was an order to place assets into an escrow
account “to preserve the status quo” and “assure the possibility
of complete relief following administrative adjudication.” FTC v.
Sw. Sunsites, Inc., 665 F.2d 711, 716–21 (5th Cir. 1982). Such an
order is quite unlike the order to pay a sum of money as
restitution, so it says little about the question here.
3

40a
the Court has “adopted a far more cautious course
before finding implied causes of action.” Id. at 1855.
Under Ziglar, if “a party seeks to assert an implied
cause of action under the Constitution itself” or “under
a federal statute, separation-of- powers principles are
or should be central to the analysis.” Id. at 1857. So
too here, the principle that must guide our analysis is
that Congress—not the courts—should dictate rights
and remedies in our federal system. See id. (“The
question is ‘who should decide’ whether to provide for
a damages remedy, Congress or the courts? The
answer most often will be Congress.” (internal
quotation marks and citation omitted)); Armstrong v.
Exceptional Child Ctr., Inc., 135 S. Ct. 1378, 1385
(2015) (“The power of federal courts of equity to enjoin
unlawful executive action is subject to express and
implied statutory limitations.”); Alexander v.
Sandoval, 532 U.S. 275, 286 (2001) (“The judicial task
is to interpret the statute Congress has passed to
determine whether it displays an intent to create . . .
a private remedy.”).
Heedless of such instruction, we have implausibly
construed the word “injunction” in § 13(b) to authorize
the extensive power to order defendants to repay illgotten gains—never mind that such interpretation
makes nonsense out of § 19, and never mind that it
ignores the Court’s statements that our equitable
powers must be hemmed in by tradition. I submit that
our interpretation of § 13(b) is thus an impermissible
exercise of judicial creativity, and it contravenes the
basic separation-of-powers principle that leaves to
Congress the power to authorize (or to withhold)
rights and remedies. Our decision in Commerce Planet
is therefore a relic of that ancien regime that the Court
over the last few decades has expressly and repeatedly
repudiated.

41a
We should rehear this case en banc to revisit
Commerce Planet and its predecessors.

42a
BEA, Circuit Judge, specially concurring:
I concur in the opinion because our precedent 1
compels me to, but I write separately to acknowledge
that the question whether something is “likely to
deceive” is inherently factual and should not be
decided at the summary judgment stage.
Summary judgment is proper only when there
exists no genuine issue of material fact. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 247 (1986). A
dispute of a material fact is “genuine” if the “evidence
is such that a reasonable jury could return a verdict
for the nonmoving party.” Id. at 248. In other words,
in this case, to affirm the district court’s grant of
summary judgment, we must conclude from the proofs
presented that no reasonable juror could find other
than that a reasonable consumer would likely be
deceived by the Loan Note. This is difficult to do when
the whole of the Loan Note is read. It is undisputed
that a careful reading of the Loan Note and its fine
print reveals the automatic renewal feature, whereby
borrowers’ loans would be automatically renewed
unless they navigated to a link sent to their email and
chose to pay their total balance. Because the Loan
Note includes truthful disclosures, we can say it is
“likely to deceive” as a matter of law only by positing
two scenarios: (1) it is unreasonable as a matter of law
to expect the average consumer to read all the words
of the Loan Note, including the fine print, or (2) as a
matter of law, it is unreasonable to expect the average
consumer to understand all the words of the Loan
Note in the manner in which they are displayed.

See FTC v. Cyberspace.com LLC, 453 F.3d 1196, 1200 (9th Cir.
2006).

1

43a
As to the first point, I know of no authority that
says consumers need not read the fine print of their
contracts; such a holding would certainly imperil the
validity of many insurance contracts. And as to the
second point, to say it is unreasonable to expect the
average consumer to understand the words of the
Loan Note in the manner in which they are displayed,
we would have to recognize either that the three
judges of this panel are better text readers than is the
average consumer or that judges are not average
consumers. I don’t know of any authority for
recognizing either assertion.
Indeed, we, a panel of three judges, have read and
understood the terms of the Loan Note. We have not
been deceived. Yet, we hold that the Loan Note is
likely to deceive the average consumer as a matter of
law.
Under this court’s precedent, I accept that we may
decide that the Loan Note is deceptive as a matter of
law under § 5 of the FTC Act. See FTC v.
Cyberspace.com LLC, 453 F.3d 1196, 1200 (9th Cir.
2006). What is determinative under Cyberspace is
whether the “net impression” of the questioned text is
likely to deceive. Id. This rule seems to require a judge
consciously to blur his eyes as to the actual print to
gain an “impression,” or perhaps to see the print as
French impressionist masters of the late Nineteenth
Century saw objects. But whether we are guided by
impressions from words or words themselves,
Cyberspace defies logic when the words are actually
understood by the judge to state something other than
the “net impression” that is claimed “likely to deceive.”
If something is “likely to deceive,” it means it will
more probably than not deceive. To predict what is
“likely” to happen is to predict an event. An event is a
fact, yet to occur. It did not occur when we read the

44a
Loan Note. I am at a loss to understand how we can
find it would ineluctably occur in the case of an
average reasonable consumer. It seems the event may
occur or may not occur. If so, whether it occurs in every
case can be disputed. Disputed factual questions are
reserved for juries, not for district judges acting alone
nor for a panel of appellate judges. Thus, while our
precedent obliges me to concur in this case, I think our
precedent is wrong. Courts should reserve questions
such as whether the Loan Note is “likely to deceive”
for the trier of fact.

45a
Appendix C
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
No. 2:08-cv-00620-APG-GWF
FEDERAL TRADE COMMISSION,
Plaintiff,
v.
PUBLISHERS BUSINESS SERVICES, INC., et
al.;
Defendants.
ORDER (1) GRANTING FEDERAL TRADE
COMMISSION’S MOTION FOR JUDGMENT
AND (2) DENYING AS MOOT THE PARTIES’
MOTIONS TO EXCLUDE EXPERTS
(ECF Nos. 297, 312, 315)
The Federal Trade Commission (FTC) filed this
enforcement action seeking injunctive and other
equitable relief based on the defendants’ unfair and
deceptive
practices
when
selling
magazine
subscriptions, in violation of Section 5(a) of the
Federal Trade Commission Act, 15 U.S.C. § 45(a), and
the FTC’s Telemarketing Sales Rule, 16 C.F.R. Part
310. Judge Philip Pro entered summary judgment in
favor of the FTC on liability and issued a permanent
injunction. ECF Nos. 151, 152. He also awarded
$191,219.00 in equitable relief against some of the
defendants. ECF No. 248. The FTC appealed the
monetary award and the Ninth Circuit reversed and
remanded for a recalculation of monetary equitable
relief. ECF No. 266. Following Judge Pro’s retirement,
the case was assigned to me. ECF No. 273.

46a
The parties have briefed their respective positions
on the proper amount of monetary equitable relief.
They also move to exclude each other’s experts. I
award monetary equitable relief in favor of the FTC
and against defendants Publishers Business Services,
Inc.; Ed Dantuma Enterprises, Inc.; Edward
Dantuma; Brenda Dantuma Schang; Dries Dantuma;
Dirk Dantuma; and Jeffrey Dantuma in the amount of
$23,773,147.78.
I. BACKGROUND
The facts are laid out extensively in the summary
judgment order. ECF No. 151. In brief, the defendants
operated a magazine subscription service. The
defendants would telephonically contact individuals
at their place of business and tell them that they
would get a “surprise” if they participated in a survey.
The surprise was that the defendants were selling the
consumer magazine subscriptions. The full details of
the transaction were spread out over three stages: the
initial call with the sales representative, who then
transferred the consumer to a shift supervisor, and a
later verification call. The transaction was presented
in a confusing and misleading manner by fast-talking
sales representatives, resulting in a net impression
that the consumer was receiving free magazines while
having to pay only a nominal shipping and handling
fee. In fact, the consumer was agreeing to pay
hundreds of dollars in magazine subscription fees. At
summary judgment, these practices were found as a
matter of law to create a net impression likely to
mislead the consumer in a material way.
In addition to the deceptive initial sales practices,
the defendants also engaged in misleading and
abusive collections practices when consumers refused
to pay. The defendants would falsely tell consumers
their accounts could not be canceled because the

47a
defendants had already paid the publishers for the full
subscription when in fact the defendants had not done
so. They also sent misleading collection letters from
their “legal department” even though they had no
legal department. Finally, the defendants made
harassing and threatening phone calls.
Judge Pro entered summary judgment in favor of
the FTC on liability and issued a permanent
injunction. ECF Nos. 151, 152. The parties then
presented evidence regarding monetary equitable
relief during a multi-day evidentiary hearing. ECF
Nos. 239-41, 252-53, 255. Judge Pro ruled that the
FTC had not shown that complete disgorgement of
profits was necessary to redress consumer injury. ECF
No. 248 at 3. He considered full reimbursement to
complaining customers but concluded it would be
impossible or impracticable to locate and reimburse
those customers. Id. at 3-4. He thus concluded
disgorgement of net revenues the defendants received
as a result of their violations was the proper remedy,
and he adopted the analysis of the defendants’ expert,
Dr. Gregory Duncan, to impose monetary equitable
relief in the amount of $191,219.00. Id. at 4. Finally,
Judge Pro ruled that there was insufficient evidence
to hold defendants Persis Dantuma, Brenda Dantuma
Schang, Dirk Dantuma, and Jeffrey Dantuma
individually liable. Id He therefore entered judgment
in the amount of $191,219.00 against defendants
Publishers Business Services, Inc.; Ed Dantuma
Enterprises, Inc.; Edward Dantuma; and Dries
Dantuma. Id. at 4-5.
The FTC appealed the monetary award and the
Ninth Circuit reversed and remanded. ECF No. 266.
As to individual liability, the Ninth Circuit directed
that individual liability be imposed on Dirk, Brenda,
and Jeff, as well as Edward and Dries. Id. at 8. As to

48a
the amount of monetary relief, the Ninth Circuit ruled
that Judge Pro “applied an incorrect legal standard
when [he] focused on the defendants’ gain rather than
the loss to the consumers.” Id. at 3. Judge Pro also
erred by relying on the fact that it may be impossible
to locate and reimburse individual customers. Id. at 4.
The Ninth Circuit found further error in the
reliance on the defendants’ expert, Dr. Duncan,
because his report was based on two flawed
assumptions. Id. at 5. First, Duncan assumed most
customers heard all the terms of the magazine
subscriptions so they were not misled. Id. But the
defendants’ “fraud . . . was not simply the failure to
disclose all pertinent terms.” Id. Rather, they violated
Section 5 “by the misrepresentations that launched
the process, among other reasons.” Id. Second,
Duncan assumed the magazine subscriptions were not
valueless. Id. But the Ninth Circuit stated this
“assumption is not relevant even if true” because
restitution may be appropriate where the consumer
injury “arises out of misrepresentations made in the
sales process, which lead to a tainted purchasing
decision.” Id. at 5-6 (quotation omitted). Thus,
consumers are entitled to a full refund where, as here,
the “fraud is in the selling, not in the value of the thing
sold . . . .” Id. (quotation omitted).
The Ninth Circuit vacated the award and
remanded for recalculation. Id. at 6. In doing so, the
Ninth Circuit stated that the court “should base its
calculation on the injury to the consumers, not on the
net revenues received by defendants.” Id. But “[t]hat
does not mean that the district court must accept the
calculation proposed by the FTC”:
PBS has argued, for example, that a customer
who renewed subscriptions necessarily knew
the actual terms of the transaction at the time

49a
of renewal. A similar argument was made
regarding customers who added on to a
subscription order. The district court may
consider these and other arguments in
determining the appropriate amount of
damages to be awarded.
Id.
Following remand, the parties attempted to settle,
and when that failed they engaged in another round
of expert discovery and briefing on the issue of
monetary equitable relief. In relation to that briefing,
the FTC moves to exclude the defendants’ expert, Dr.
Armando Levy. The defendants move to exclude the
FTC’s psychological expert, Dr. Alan D. Castel. The
parties also filed competing analyses of how the
monetary equitable relief ought to be calculated.
II. ANALYSIS
The FTC contends I should enter judgment in the
amount of $23,773,147.78 based on the presumption
that all first-time orders were made in reliance on the
deceptive practices. The FTC argues it is entitled to
the presumption that every first-time customer relied
on the deceptive sales practices because the summary
judgment order established the defendants’ deceptive
practices were material and widely disseminated. The
FTC excluded from its calculation payments by
customers who renewed or added on to their
subscriptions, consistent with the Ninth Circuit’s
remand order. However, the FTC did not exclude
those same customers’ initial subscriptions because it
takes the position that all first-time orders were
tainted by the misleading practices, even for those
customers who later renewed or added on.
The defendants argue this court is not authorized
to award monetary relief. The defendants also assert

50a
the FTC is not entitled to a presumption of consumer
reliance because the FTC has not shown the
defendants’ revenues were the result of widespread
deception. Rather, the defendants contend, they had
many satisfied customers. Alternatively, the
defendants argue their expert has provided three
different formulas for determining relief that more
accurately reflect consumer injury resulting from the
violations.
A. Authority to Grant Monetary Equitable
Relief
District courts have the authority under Section
13(b) of the FTC Act to “grant any ancillary relief
necessary to accomplish complete justice, including
restitution.” FTC v. Commerce Planet, Inc., 815 F.3d
593, 598 (9th Cir. 2016) (quotation omitted), cert.
denied sub nom. Gugliuzza v. FTC, 2017 WL 69198
(U.S. Jan. 9, 2017); see also FTC v. Stefanchik, 559 28
F.3d 924, 931 (9th Cir. 2009). The defendants’
argument that I lack authority to enter monetary
equitable relief is foreclosed by controlling authority.
Moreover, the defendants waived this argument
in this case. They did not appeal Judge Pro’s prior
order entering a monetary award against them. Nor
did they raise the issue in their briefs opposing the
FTC’s appeal before the Ninth Circuit. See FTC v.
Publishers Business Services, Inc., et al., No. 1117270, ECF Nos. 22 (Answering Br.), 24 (Answering
Br.), 57 (Pet. for R’hrg En Banc). Consequently, I have
authority to enter monetary equitable relief in this
case.
B. Reliance
The defendants argue that to order relief
redressing consumer injury, there must be proof that
customers were injured by the deceptive practices,

51a
meaning the customers relied on the deceptive
practices in making their decision to purchase the
magazines. The defendants acknowledge that under
certain circumstances, the FTC is entitled to a
presumption of consumer reliance. However, they
contend the FTC has not met its burden of showing it
is entitled to the presumption, and, even if the
presumption arises, the defendants argue they have
rebutted it.
The FTC responds that it is entitled to the
presumption of consumer reliance because the
summary judgment order established that the
defendants’ deceptive practices were material and
widespread. Additionally, the FTC contends that the
presumption was not rebutted, as the evidence
showed consumers were confused about the
transaction.
“[P]roof of individual reliance by each purchasing
customer is not needed” under Section 13 of the FTC
Act. FTC v. Figgie Int’l, Inc., 994 F.2d 595, 605 (9th
Cir. 1993). Requiring a showing of individual reliance
in FTC enforcement actions “would thwart effective
prosecutions of large consumer redress actions and
frustrate the statutory goals of the section.” Id.
(quotation omitted). Thus, in such cases, the FTC is
entitled to a “presumption of actual reliance” once it
“has proved that the defendant made material
misrepresentations,
that
they
were
widely
disseminated, and that consumers purchased the
defendant’s product.” Id. at 605-06. If the FTC 27
makes this showing, “the burden shifts to the
defendant to prove the absence of reliance.” Id. at 606.
1. The FTC is Entitled to the Presumption
There is no dispute that consumers purchased the
defendants’ magazine subscriptions and that the

52a
misleading practices were material. The summary
judgment order made a specific materiality finding.
ECF No. 151 at 30. The defendants contend, however,
that the FTC has not shown the misleading practices
were widespread.
The summary judgment order, which the
defendants did not appeal, describes the widespread
nature of the misleading practices. The evidence
showed the defendants made approximately 25
million calls during the relevant period. ECF No. 151
at 11. The defendants’ sales representatives, shift
supervisors, and verifiers were directed to follow
scripts for these calls and those scripts comprised the
misleading sales pitch. Id. at 3-5, 7-8, 27-30. Although
some employees deviated from the scripts, the
evidence showed those deviations made the sales
pitches more misleading, not less so. Id.; see also ECF
No. 94 at 25 (former employee stating that when
representatives deviated from the script, they “said
whatever they felt they needed to say in order to make
a sale” and no employees were disciplined for
deviating); id. at 31-32 (former employee stating some
telemarketers went off script to increase sales,
telemarketers were not disciplined for going off script,
and even when off script, “the basic message of the
script remained the same”); id. at 38-39 (former
employee stating it was “an open secret” that
“supervisors subtlety [sic] encouraged the experienced
telemarketers to go off script in order to increase
sales”). The defendants do not point to any evidence
that the deviations cured the misleading statements
in the scripts or that the deviations were the norm.
Indeed, when it suited them, the defendants argued at
summary judgment that the deviations were rare.
ECF No. 131 at 8. The FTC thus is entitled to a
presumption that all consumers who purchased

53a
magazine subscriptions did so in reliance on the
misleading sales practices.
2. The FTC Has Shown Reliance
The defendants argue that even if the FTC is
entitled to the presumption, they have rebutted that
presumption through evidence that some customers
were satisfied. The FTC responds that even those
customers who testified they were satisfied were still
confused about the terms of the transaction.
Under Federal Rule of Evidence 301, “[i]n a civil
case, unless a federal statute or these rules provide
otherwise, the party against whom a presumption is
directed has the burden of producing evidence to rebut
the presumption. But this rule does not shift the
burden of persuasion, which remains on the party who
had it originally.” The Ninth Circuit has adopted the
“so-called ‘bursting bubble’ approach to presumptions”
in some contexts. See Nunley v. City of L.A., 52 F.3d
792, 796 (9th Cir. 1995) (finding bursting bubble
approach appropriate in the context of Federal Rule of
Appellate Procedure 4(a)(6) in relation to the
presumption that a document that was mailed was
received). Under the bursting bubble approach, “a
presumption disappears where rebuttal evidence is
presented.” Id. Upon presentation of evidence
rebutting the presumption, the district judge “must
then weigh the evidence and make a considered
factual determination . . ., rather than denying the
motion out of hand . . . .” Id. I may find consumer
reliance, despite the presentation of rebuttal evidence,
based on all the evidence including the very facts that
support the presumption. Id.
Assuming the bursting bubble theory would apply
to the presumption of consumer reliance in an FTC
enforcement action, it is questionable the defendants’

54a
evidence even rebuts the presumption. The fact that
some customers were ultimately satisfied with the
magazines they purchased does not necessarily mean
their original decision to purchase was free from the
taint of the defendants’ deceptive sales practices. “The
injury to a consumer occurs at the instant of a seller’s
misrepresentations, which taint the consumer’s
subsequent purchasing decisions.” FTC v. BlueHippo
Funding, LLC, 762 F.3d 238, 244 (2d Cir. 2014); see
also Figgie Int’l, Inc., 994 F.2d at 606 (stating the
“seller’s misrepresentations tainted the customers’
purchasing decisions” and the “fraud in the selling . .
. is what entitles consumers . . . to full refunds”).
Even if the presumption bubble has burst, the
FTC has met its burden of showing consumer reliance.
The evidence underlying the presumption supports
the conclusion that every initial order was tainted by
the defendants’ Section 5 violations. The defendants
made millions of sales calls using scripts that were
materially misleading as a matter of law. The FTC has
presented evidence from consumers that they were
misled into giving money to the defendants by the
misleading sales pitch. See ECF Nos. 5 at 10-11, 3540 1; 5-2 at 1-3; 96 at 39-43, 69-70, 87-91; 241 at 4, 716, 90. The defendants’ witnesses who testified they
were satisfied nevertheless appeared to be confused
about, or unaware of, the terms of the transaction. 2
This customer made payments but received a refund. Her injury
therefore would not be part of the monetary relief award, but her
testimony supports the conclusion that consumers relied on the
Section 5 violations to make payments.

1

See ECF Nos. 241 at 147-54 (customer Benjamin Ryne testifying
he understood the defendants were selling magazines, the
magazines were not free, he was a satisfied customer, but he was
unaware of the total price of the magazines); id. at 162-77
(customer Jodi Cairo testifying she understood she would have to

2

55a
The FTC therefore has shown reliance on the Section
5 violations to support an award of monetary
equitable relief.
C. Calculation of the Restitution Amount
Following the remand in this case, the Ninth
Circuit adopted a “two-step burden-shifting
framework . . . for calculating restitution awards
under § 13(b).” Commerce Planet, Inc., 815 F.3d at
603. “Under the first step, the FTC bears the burden
of proving that the amount it seeks in restitution
reasonably approximates the defendant’s unjust
gains, since the purpose of such an award is ‘to
prevent the defendant’s unjust enrichment by
recapturing the gains the defendant secured in a
transaction.’” Id. (quoting 1 Dobbs, Law of Remedies §
4.1(1), at 552). Unjust gains “are measured by the
defendant’s net revenues (typically the amount
consumers paid for the product or service minus
refunds and chargebacks), not by the defendant’s net
profits.” Id. Unjust gains are not measured by “the
consumers’ total losses” because “that would amount
to an award of damages, a remedy . . . precluded under
§ 13(b).” Id. However, in many cases, like this one, “the
pay for the magazines and she was a satisfied customer, but she
did not know how many months or years she had agreed to pay);
253 at 116-25 and Evid. Hrg. Ex. 48 (customer Wendy Goken
testifying she understood she would have to pay and she was
satisfied but she did not know how much the payments were for,
she did not know for how long the payments would need to be
made, and she did not understand what the total cost was);
Recording of Hrg. from June 8, 2011, testimony of Shannon
Meehan (testifying she knew how much she was paying and
thought she was getting a good deal but she did not comparison
shop and could not identify on what basis she thought the
defendants’ magazines were a good deal; she just liked the
convenience).

56a
defendant’s unjust gain will be equal to the
consumer’s loss because the consumer buys goods or
services directly from the defendant,” without a
middleman. Id. (quotation omitted).
If the FTC meets its burden, “the burden then
shifts to the defendant to show that the FTC’s figures
overstate the amount of the defendant’s unjust gains.”
Id. at 604. “Any risk of uncertainty at this second step
fall[s] on the wrongdoer whose illegal conduct created
the uncertainty.” Id. (quotation omitted).
1. The FTC Has Met Its Initial Burden
The parties agree the defendants collected
$24,038,392.03 from first-time orders. ECF Nos. 3125 at 12; 316-1 at 5-6, 16-17. The parties also agree that
the defendants issued $265,244.25 in chargebacks and
refunds. ECF Nos. 132-2 at 19; 312 at 14-15. Under
Commerce Planet, the defendants’ net revenues of
$23,773,147.78
reasonably
approximate
the
defendants’ unjust gains ($24,038,392.03 paid by
consumers minus refunds and chargebacks of
$265,244.25, equaling $23,773,147.78).
In light of the Ninth Circuit’s remand order, the
FTC has not requested any revenues from renewal or
add-on orders. The defendants argue the initial order
for any customer who later renewed or added on to
their orders should also be removed from the
restitution amount. However, the fact that a customer
was satisfied with the product or service does not
mean that customer’s initial purchasing decision was
not induced by the defendants’ misleading practices.
Indeed, the Ninth Circuit suggested that renewals or
add-ons may be excluded from restitution if those
customers “necessarily knew the actual terms of the
transaction at the time of renewal.” ECF No. 266 at 6.
The Ninth Circuit did not suggest that those

57a
customers necessarily knew the terms at the time of
the original purchase, nor did it suggest that the
defendants’ misleading tactics did not taint the initial
purchase decision for these customers. To the
contrary, the Ninth Circuit noted that the defendants
violated Section 5 “by the misrepresentations that
launched the process, among other reasons.” Id. at 5.
The FTC’s calculation thus reasonably approximates
the defendants’ unjust gains by including the firsttime orders for all customers. As discussed above, the
FTC has met its burden of showing that all first-time
orders were tainted by the defendants’ Section 5
violations.
2. The Defendants Have Not Shown the Amount is
Overstated
The burden thus shifts to the defendants to show
that the FTC’s requested amount overstates the
amount of their unjust gains. The defendants rely on
their expert, Dr. Levy. In response, the FTC seeks to
exclude Dr. Levy under Daubert because his opinions
contradict the Ninth Circuit’s remand order and
unjustifiably exclude large numbers of consumers
from the restitution calculation.
Dr. Levy gives three alternative amounts by which
to measure monetary equitable relief. First, he
proposes that the amount of economic harm suffered
by misled consumers is approximately $465,000. ECF
No. 316-1 at 16-17, 24-25. I reject this proposed
calculation because it conflicts with the Ninth
Circuit’s remand order in this case. This calculation
involves an assumption that consumers valued the
magazines they received and discounts consumer
injury by approximately ninety-five percent based on
the magazines’ value. See ECF No. 316-1 at 9, 21-24.
The Ninth Circuit’s remand order specifically rejected
the prior expert’s opinion because he assumed the

58a
magazine subscriptions had value. ECF No. 266 at 5.
The Ninth Circuit stated this “assumption is not
relevant even if true” because restitution may be
appropriate where the consumer injury “arises out of
misrepresentations made in the sales process, which
lead to a tainted purchasing decision.” Id. at 5-6
(quotation omitted). Thus, consumers are entitled to a
full refund, with no discount for the value of the
magazines, where, as here, the “fraud is in the selling,
not in the value of the thing sold . . . .” Id. (quoting
Figgie Int’l, Inc., 994 F.2d at 606).
Dr. Levy also does not adequately support his
assumption that 67.5 percent of customers who were
unhappy called the defendants to cancel or
complained to a third party. See ECF No. 316-1 at 24.
Although Dr. Levy extrapolated from studies on
complaint rates, those studies had rather unhelpful
complaint-rate ranges from 10 to 84 percent. Id. at 1415. Dr. Levy explained that he leaned toward the high
end because the defendants offered a service
component and because the deception involved the
price to be paid, which was the core of the bargain
between the parties. Id. at 15. But he does not explain
why this leads to the assumption of 67.5 percent as
opposed to some other number. Dr. Levy also confined
his group of complaining customers to those who
complained to a third party or called the defendants
to cancel. ECF No. 316-1 at 16. He does not explain
why he did not attempt to capture complaints
unaccompanied by a request to cancel. See ECF No.
102 at 138-66 (first payment coupons from customers
showing complaints that consumers preferred not to
be called at work, sales representatives talked too
fast, consumers were rushed into the decision, were
“forced into buying,” and did not understand or
received a poor explanation of the transaction’s

59a
terms). Nor does he explore whether the defendants’
deceptive sales practices themselves contributed to a
lower cancellation rate from unhappy customers
where customers were told they could not cancel. ECF
No. 151 at 17, 30-31 (part of deceptive practices was
telling customers they could not cancel).
Moreover, Dr. Levy assumes a certain percentage
of the defendants’ customers were “satisfied” and thus
suffered no or de minimis injury. ECF No. 316-1 at 17.
But the mere fact that some customers renewed or
added on does not show that the initial purchasing
decision for these customers was not induced by the
Section 5 violations. The defendants bear the risk of
uncertainty as to whether there were some customers
who were not deceived and did not have their original
purchasing decision tainted by the defendants’
misleading practices. They have not provided me a
reliable method of determining how many customers
fall into this category. I therefore make no deduction
from first-time orders based on so-called “satisfied”
customers. 3
Dr. Levy’s second proposal suggests the amount of
relief be bounded by the defendants’ profits of
$698,446 based on Dr. Duncan’s prior analysis. ECF
No. 316-1 at 12-13. I reject this analysis because the
Ninth Circuit’s remand order makes clear that relying
The Ninth Circuit has suggested there is no authority to reduce
an equitable restitution award for “satisfied” customers. See
Consumer Fin. Prot. Bureau v. Gordon, 819 F.3d 1179, 1195-96
(9th Cir. 2016) (“Gordon argues that the district court should not
have included fees paid by ‘satisfied’ consumers. There is no
precedent for this proposition.”). Even if I interpret “satisfied” to
mean the customer was neither misled nor had their purchasing
decision tainted, the defendants have not presented a reliable
method for determining how many customers fall into this
category.

3

60a
on Dr. Duncan’s profits analysis is error. ECF No. 266
at 3.
Finally, Dr. Levy estimates the defendants’
revenues from the Section 5 violations amounts to
$1.15 million. I reject this analysis because Dr. Levy
assumes misled customers would seek to cancel before
making any payment and he thus excludes from this
number revenue from customers who never contacted
the defendants to cancel and never complained to a
third party. ECF Nos. 316-1 at 17-18, 20; 297-3 at 2526. Dr. Levy does not provide an adequate basis for
this assumption and it contradicts his own statement
elsewhere in his report that he “expect[s] that there
are customers who were unhappy but nevertheless
failed to complain.” ECF No. 316-1 at 15; see also ECF
No. 297-3 at 32 (Dr. Levy’s deposition testimony in
which he cites no studies or literature to support his
assumption that dissatisfied customers would cancel
before their first payment). Moreover, it contradicts
the evidence in this case, which shows some
consumers complained but still paid the defendants
without canceling or complained after they made
payments. See ECF Nos. 5 at 10-11, 35-40; 5-2 at 1-3;
96 at 39-43, 69-70, 87-91; 102 at 138-66.
Thus, even if I consider Dr. Levy’s report, the
defendants have not met their burden of showing the
FTC’s calculation overstates their unjust gains.
Accordingly, I will award the FTC $23,773,147.78 in
monetary equitable relief against defendants
Publishers Business Services, Inc.; Ed Dantuma
Enterprises, Inc.; Edward Dantuma; Brenda
Dantuma Schang; Dries Dantuma; Dirk Dantuma;
and Jeffrey Dantuma. Because I reach this conclusion
while considering Dr. Levy’s report and without
considering Dr. Castel’s report, I deny the parties’
respective motions to exclude as moot.

61a
III. CONCLUSION
IT IS THEREFORE ORDERED that plaintiff
Federal Trade Commission’s motion for judgment
(ECF No. 312) is GRANTED. Plaintiff Federal
Trade Commission is awarded the sum of
$23,773,147.78 as monetary equitable relief against
defendants Publishers Business Services, Inc.; Ed
Dantuma Enterprises, Inc.; Edward Dantuma; Dries
Dantuma; Brenda Dantuma Schang; Dirk Dantuma;
and Jeffrey Dantuma, joint and several. The Clerk of
Court shall enter judgment accordingly.
IT IS FURTHER ORDERED that plaintiff Federal
Trade Commission’s motion to exclude the testimony
of Dr. Armando Levy (ECF No. 297) is DENIED as
moot. IT IS FURTHER ORDERED that the
defendants’ motion to exclude putative expert Alan
Castel (ECF No. 315) is DENIED as moot.
IT IS FURTHER ORDERED that unless a motion
to seal is filed by any party within 21 days of the date
of this order, plaintiff Federal Trade Commission’s
motion to exclude testimony of Dr. Armando Levy
(ECF No. 297) shall be unsealed. If any party
determines that any portion of the filing should
remain sealed, that party must file a renewed motion
to seal along with a proposed redacted version of the
filing. Any motion to seal must set forth compelling
reasons to support sealing those portions.

62a
DATED this 1st day of February, 2017.

ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

63a
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-15600
FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.
DIRK DANTUMA; et al.,
Defendants-Appellants,
ORDER
FILED: June 19, 2019
Before: O’SCANNLAIN and BEA, Circuit Judges, and
STEARNS, District Judge.
The panel has voted to deny Appellants’ petition
for panel rehearing. Judge Bea votes to deny
Appellants’ petition for rehearing en banc, and Judges
O’Scannlain and Stearns recommend that en banc
rehearing be denied. The full court has been advised
of the petition for rehearing en banc and no judge of
the court has requested a vote on en banc rehearing.
See Fed. R. App. P. 35(f). The petition for panel
rehearing and the petition for rehearing en banc are
denied.

64a
Appendix E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 16-17197
FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.
AMG CAPITAL MANAGEMENT, LLC; BLACK
CREEK CAPITAL CORPORATION; BROADMOOR
CAPITAL PARTNERS, LLC; LEVEL 5
MOTORSPORTS, LLC; SCOTT A. TUCKER; PARK
269 LLC; KIM C. TUCKER,
Defendants-Appellants.
ORDER
FILED: June 20, 2019
Before: O’SCANNLAIN and BEA, Circuit Judges, and
STEARNS,* District Judge.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for rehearing en banc is DENIED.

65a
Appendix F
§ 13 of the FTC Act (15 U.S.C. §53)
(a) Power of Commission; jurisdiction of courts
Whenever the Commission has reason to believe—
(1) that any person, partnership, or corporation is
engaged in, or is about to engage in, the dissemination
or the causing of the dissemination of any
advertisement in violation of section 52 of this title,
and
(2) that the enjoining thereof pending the issuance of
a complaint by the Commission under section 45 of
this title, and until such complaint is dismissed by the
Commission or set aside by the court on review, or the
order of the Commission to cease and desist made
thereon has become final within the meaning of
section 45 of this title, would be to the interest of the
public,
the Commission by any of its attorneys designated by
it for such purpose may bring suit in a district court of
the United States or in the United States court of any
Territory, to enjoin the dissemination or the causing
of the dissemination of such advertisement. Upon
proper showing a temporary injunction or restraining
order shall be granted without bond. Any suit may be
brought where such person, partnership, or
corporation resides or transacts business, or wherever
venue is proper under section 1391 of title 28. In
addition, the court may, if the court determines that
the interests of justice require that any other person,
partnership, or corporation should be a party in such
suit, cause such other person, partnership, or
corporation to be added as a party without regard to
whether venue is otherwise proper in the district in

66a
which the suit is brought. In any suit under this
section, process may be served on any person,
partnership, or corporation wherever it may be found.
(b) Temporary
injunctions

restraining

orders;

preliminary

Whenever the Commission has reason to believe—
(1) that any person, partnership, or corporation is
violating, or is about to violate, any provision of law
enforced by the Federal Trade Commission, and
(2) that the enjoining thereof pending the issuance of
a complaint by the Commission and until such
complaint is dismissed by the Commission or set aside
by the court on review, or until the order of the
Commission made thereon has become final, would be
in the interest of the public—
the Commission by any of its attorneys designated by
it for such purpose may bring suit in a district court of
the United States to enjoin any such act or practice.
Upon a proper showing that, weighing the equities
and considering the Commission’s likelihood of
ultimate success, such action would be in the public
interest, and after notice to the defendant, a
temporary restraining order or a preliminary
injunction may be granted without bond: Provided,
however, That if a complaint is not filed within such
period (not exceeding 20 days) as may be specified by
the court after issuance of the temporary restraining
order or preliminary injunction, the order or
injunction shall be dissolved by the court and be of no
further force and effect: Provided further, That in
proper cases the Commission may seek, and after
proper proof, the court may issue, a permanent
injunction. Any suit may be brought where such
person, partnership, or corporation resides or
transacts business, or wherever venue is proper under

67a
section 1391 of title 28. In addition, the court may, if
the court determines that the interests of justice
require that any other person, partnership, or
corporation should be a party in such suit, cause such
other person, partnership, or corporation to be added
as a party without regard to whether venue is
otherwise proper in the district in which the suit is
brought. In any suit under this section, process may
be served on any person, partnership, or corporation
wherever it may be found.
***
§ 19 of the FTC Act (15 U.S.C. § 57b)
(a) Suits by Commission against persons,
partnerships, or corporations; jurisdiction; relief for
dishonest or fraudulent acts
(1) If any person, partnership, or corporation violates
any rule under this subchapter respecting unfair or
deceptive acts or practices (other than an interpretive
rule, or a rule violation of which the Commission has
provided is not an unfair or deceptive act or practice
in violation of section 45(a) of this title), then the
Commission may commence a civil action against such
person, partnership, or corporation for relief under
subsection (b) in a United States district court or in
any court of competent jurisdiction of a State.
(2) If any person, partnership, or corporation engages
in any unfair or deceptive act or practice (within the
meaning of section 45(a)(1) of this title) with respect
to which the Commission has issued a final cease and
desist order which is applicable to such person,
partnership, or corporation, then the Commission may
commence a civil action against such person,
partnership, or corporation in a United States district
court or in any court of competent jurisdiction of a
State. If the Commission satisfies the court that the

68a
act or practice to which the cease and desist order
relates is one which a reasonable man would have
known under the circumstances was dishonest or
fraudulent, the court may grant relief under
subsection (b).
(b) Nature of relief available
The court in an action under subsection (a) shall have
jurisdiction to grant such relief as the court finds
necessary to redress injury to consumers or other
persons, partnerships, and corporations resulting
from the rule violation or the unfair or deceptive act
or practice, as the case may be. Such relief may
include, but shall not be limited to, rescission or
reformation of contracts, the refund of money or
return of property, the payment of damages, and
public notification respecting the rule violation or the
unfair or deceptive act or practice, as the case may be;
except that nothing in this subsection is intended to
authorize the imposition of any exemplary or punitive
damages.
(c) Conclusiveness of findings of Commission in cease
and desist proceedings; notice of judicial proceedings
to injured persons, etc.
(1) If (A) a cease and desist order issued under section
45(b) of this title has become final under section 45(g)
of this title with respect to any person’s, partnership’s,
or corporation’s rule violation or unfair or deceptive
act or practice, and (B) an action under this section is
brought with respect to such person’s, partnership’s,
or corporation’s rule violation or act or practice, then
the findings of the Commission as to the material facts
in the proceeding under section 45(b) of this title with
respect to such person’s, partnership’s, or
corporation’s rule violation or act or practice, shall be
conclusive unless (i) the terms of such cease and desist

69a
order expressly provide that the Commission’s
findings shall not be conclusive, or (ii) the order
became final by reason of section 45(g)(1) of this title,
in which case such finding shall be conclusive if
supported by evidence.
(2) The court shall cause notice of an action under this
section to be given in a manner which is reasonably
calculated, under all of the circumstances, to apprise
the persons, partnerships, and corporations allegedly
injured by the defendant’s rule violation or act or
practice of the pendency of such action. Such notice
may, in the discretion of the court, be given by
publication.
(d) Time for bringing of actions
No action may be brought by the Commission under
this section more than 3 years after the rule violation
to which an action under subsection (a)(1) relates, or
the unfair or deceptive act or practice to which an
action under subsection (a)(2) relates; except that if a
cease and desist order with respect to any person’s,
partnership’s, or corporation’s rule violation or unfair
or deceptive act or practice has become final and such
order was issued in a proceeding under section 45(b)
of this title which was commenced not later than 3
years after the rule violation or act or practice
occurred, a civil action may be commenced under this
section against such person, partnership, or
corporation at any time before the expiration of one
year after such order becomes final.
(e) Availability of additional Federal or State
remedies; other authority of Commission unaffected
Remedies provided in this section are in addition to,
and not in lieu of, any other remedy or right of action
provided by State or Federal law. Nothing in this

70a
section shall be construed to affect any authority of
the Commission under any other provision of law.
§ 5 of the FTC Act (15 U.S.C. § 45)
(a) Declaration of unlawfulness; power to prohibit
unfair practices; inapplicability to foreign trade
(1) Unfair methods of competition in or affecting
commerce, and unfair or deceptive acts or practices in
or affecting commerce, are hereby declared unlawful.
(2) The Commission is hereby empowered and
directed to prevent persons, partnerships, or
corporations, except banks, savings and loan
institutions described in section 57a(f)(3) of this title,
Federal credit unions described in section 57a(f)(4) of
this title, common carriers subject to the Acts to
regulate commerce, air carriers and foreign air
carriers subject to part A of subtitle VII of title 49, and
persons, partnerships, or corporations insofar as they
are subject to the Packers and Stockyards Act, 1921,
as amended [7 U.S.C. 181 et seq.], except as provided
in section 406(b) of said Act [7 U.S.C. 227(b)], from
using unfair methods of competition in or affecting
commerce and unfair or deceptive acts or practices in
or affecting commerce.
***
(b) Proceeding by Commission; modifying and setting
aside orders
Whenever the Commission shall have reason to
believe that any such person, partnership, or
corporation has been or is using any unfair method of
competition or unfair or deceptive act or practice in or
affecting commerce, and if it shall appear to the
Commission that a proceeding by it in respect thereof
would be to the interest of the public, it shall issue and
serve upon such person, partnership, or corporation a

71a
complaint stating its charges in that respect and
containing a notice of a hearing upon a day and at a
place therein fixed at least thirty days after the
service of said complaint. The person, partnership, or
corporation so complained of shall have the right to
appear at the place and time so fixed and show cause
why an order should not be entered by the
Commission requiring such person, partnership, or
corporation to cease and desist from the violation of
the law so charged in said complaint. Any person,
partnership, or corporation may make application,
and upon good cause shown may be allowed by the
Commission to intervene and appear in said
proceeding by counsel or in person. The testimony in
any such proceeding shall be reduced to writing and
filed in the office of the Commission. If upon such
hearing the Commission shall be of the opinion that
the method of competition or the act or practice in
question is prohibited by this subchapter, it shall
make a report in writing in which it shall state its
findings as to the facts and shall issue and cause to be
served on such person, partnership, or corporation an
order requiring such person, partnership, or
corporation to cease and desist from using such
method of competition or such act or practice. Until
the expiration of the time allowed for filing a petition
for review, if no such petition has been duly filed
within such time, or, if a petition for review has been
filed within such time then until the record in the
proceeding has been filed in a court of appeals of the
United States, as hereinafter provided, the
Commission may at any time, upon such notice and in
such manner as it shall deem proper, modify or set
aside, in whole or in part, any report or any order
made or issued by it under this section. After the
expiration of the time allowed for filing a petition for
review, if no such petition has been duly filed within

72a
such time, the Commission may at any time, after
notice and opportunity for hearing, reopen and alter,
modify, or set aside, in whole or in part, any report or
order made or issued by it under this section,
whenever in the opinion of the Commission conditions
of fact or of law have so changed as to require such
action or if the public interest shall so require, except
that (1) the said person, partnership, or corporation
may, within sixty days after service upon him or it of
said report or order entered after such a reopening,
obtain a review thereof in the appropriate court of
appeals of the United States, in the manner provided
in subsection (c) of this section; and (2) in the case of
an order, the Commission shall reopen any such order
to consider whether such order (including any
affirmative relief provision contained in such order)
should be altered, modified, or set aside, in whole or
in part, if the person, partnership, or corporation
involved files a request with the Commission which
makes a satisfactory showing that changed conditions
of law or fact require such order to be altered,
modified, or set aside, in whole or in part. The
Commission shall determine whether to alter, modify,
or set aside any order of the Commission in response
to a request made by a person, partnership, or
corporation under paragraph (2) not later than 120
days after the date of the filing of such request.
(c) Review of order; rehearing
Any person, partnership, or corporation required by
an order of the Commission to cease and desist from
using any method of competition or act or practice may
obtain a review of such order in the court of appeals of
the United States, within any circuit where the
method of competition or the act or practice in
question was used or where such person, partnership,
or corporation resides or carries on business, by filing

73a
in the court, within sixty days from the date of the
service of such order, a written petition praying that
the order of the Commission be set aside. A copy of
such petition shall be forthwith transmitted by the
clerk of the court to the Commission, and thereupon
the Commission shall file in the court the record in the
proceeding, as provided in section 2112 of Title 28.
Upon such filing of the petition the court shall have
jurisdiction of the proceeding and of the question
determined
therein
concurrently
with
the
Commission until the filing of the record and shall
have power to make and enter a decree affirming,
modifying, or setting aside the order of the
Commission, and enforcing the same to the extent
that such order is affirmed and to issue such writs as
are ancillary to its jurisdiction or are necessary in its
judgement to prevent injury to the public or to
competitors pendente lite. The findings of the
Commission as to the facts, if supported by evidence,
shall be conclusive. To the extent that the order of the
Commission is affirmed, the court shall thereupon
issue its own order commanding obedience to the
terms of such order of the Commission. If either party
shall apply to the court for leave to adduce additional
evidence, and shall show to the satisfaction of the
court that such additional evidence is material and
that there were reasonable grounds for the failure to
adduce such evidence in the proceeding before the
Commission, the court may order such additional
evidence to be taken before the Commission and to be
adduced upon the hearing in such manner and upon
such terms and conditions as to the court may seem
proper. The Commission may modify its findings as to
the facts, or make new findings, by reason of the
additional evidence so taken, and it shall file such
modified or new findings, which, if supported by
evidence, shall be conclusive, and its recommendation,

74a
if any, for the modification or setting aside of its
original order, with the return of such additional
evidence. The judgment and decree of the court shall
be final, except that the same shall be subject to
review by the Supreme Court upon certiorari, as
provided in section 1254 of Title 28.
(d) Jurisdiction of court
Upon the filing of the record with it the jurisdiction of
the court of appeals of the United States to affirm,
enforce, modify, or set aside orders of the Commission
shall be exclusive.
(e) Exemption from liability
No order of the Commission or judgement of court to
enforce the same shall in anywise relieve or absolve
any person, partnership, or corporation from any
liability under the Antitrust Acts.
(f) Service of complaints, orders and other processes;
return
Complaints, orders, and other processes of the
Commission under this section may be served by
anyone duly authorized by the Commission, either (a)
by delivering a copy thereof to the person to be served,
or to a member of the partnership to be served, or the
president, secretary, or other executive officer or a
director of the corporation to be served; or (b) by
leaving a copy thereof at the residence or the principal
office or place of business of such person, partnership,
or corporation; or (c) by mailing a copy thereof by
registered mail or by certified mail addressed to such
person, partnership, or corporation at his or its
residence or principal office or place of business. The
verified return by the person so serving said
complaint, order, or other process setting forth the
manner of said service shall be proof of the same, and

75a
the return post office receipt for said complaint, order,
or other process mailed by registered mail or by
certified mail as aforesaid shall be proof of the service
of the same.
(g) Finality of order
An order of the Commission to cease and desist shall
become final-(1) Upon the expiration of the time allowed for filing a
petition for review, if no such petition has been duly
filed within such time; but the Commission may
thereafter modify or set aside its order to the extent
provided in the last sentence of subsection (b).
(2) Except as to any order provision subject to
paragraph (4), upon the sixtieth day after such order
is served, if a petition for review has been duly filed;
except that any such order may be stayed, in whole or
in part and subject to such conditions as may be
appropriate, by-(A) the Commission;
(B) an appropriate court of appeals of the United
States, if (i) a petition for review of such order is
pending in such court, and (ii) an application for such
a stay was previously submitted to the Commission
and the Commission, within the 30-day period
beginning on the date the application was received by
the Commission, either denied the application or did
not grant or deny the application; or
(C) the Supreme Court, if an applicable petition for
certiorari is pending.
(3) For purposes of subsection (m)(1)(B) and of section
57b(a)(2) of this title, if a petition for review of the
order of the Commission has been filed--

76a
(A) upon the expiration of the time allowed for filing a
petition for certiorari, if the order of the Commission
has been affirmed or the petition for review has been
dismissed by the court of appeals and no petition for
certiorari has been duly filed;
(B) upon the denial of a petition for certiorari, if the
order of the Commission has been affirmed or the
petition for review has been dismissed by the court of
appeals; or
(C) upon the expiration of 30 days from the date of
issuance of a mandate of the Supreme Court directing
that the order of the Commission be affirmed or the
petition for review be dismissed.
(4) In the case of an order provision requiring a person,
partnership, or corporation to divest itself of stock,
other share capital, or assets, if a petition for review
of such order of the Commission has been filed—
(A) upon the expiration of the time allowed for filing a
petition for certiorari, if the order of the Commission
has been affirmed or the petition for review has been
dismissed by the court of appeals and no petition for
certiorari has been duly filed;
(B) upon the denial of a petition for certiorari, if the
order of the Commission has been affirmed or the
petition for review has been dismissed by the court of
appeals; or
(C) upon the expiration of 30 days from the date of
issuance of a mandate of the Supreme Court directing
that the order of the Commission be affirmed or the
petition for review be dismissed.
(h) Modification or setting aside of order by Supreme
Court

77a
If the Supreme Court directs that the order of the
Commission be modified or set aside, the order of the
Commission rendered in accordance with the mandate
of the Supreme Court shall become final upon the
expiration of thirty days from the time it was
rendered, unless within such thirty days either party
has instituted proceedings to have such order
corrected to accord with the mandate, in which event
the order of the Commission shall become final when
so corrected.
(i) Modification or setting aside of order by Court of
Appeals
If the order of the Commission is modified or set aside
by the court of appeals, and if (1) the time allowed for
filing a petition for certiorari has expired and no such
petition has been duly filed, or (2) the petition for
certiorari has been denied, or (3) the decision of the
court has been affirmed by the Supreme Court, then
the order of the Commission rendered in accordance
with the mandate of the court of appeals shall become
final on the expiration of thirty days from the time
such order of the Commission was rendered, unless
within such thirty days either party has instituted
proceedings to have such order corrected so that it will
accord with the mandate, in which event the order of
the Commission shall become final when so corrected.
(j) Rehearing upon order or remand
If the Supreme Court orders a rehearing; or if the case
is remanded by the court of appeals to the Commission
for a rehearing, and if (1) the time allowed for filing a
petition for certiorari has expired, and no such
petition has been duly filed, or (2) the petition for
certiorari has been denied, or (3) the decision of the
court has been affirmed by the Supreme Court, then
the order of the Commission rendered upon such

78a
rehearing shall become final in the same manner as
though no prior order of the Commission had been
rendered.
(k) “Mandate” defined
As used in this section the term “mandate”, in case a
mandate has been recalled prior to the expiration of
thirty days from the date of issuance thereof, means
the final mandate.
(l) Penalty for violation of order; injunctions and other
appropriate equitable relief
Any person, partnership, or corporation who violates
an order of the Commission after it has become final,
and while such order is in effect, shall forfeit and pay
to the United States a civil penalty of not more than
$10,000 for each violation, which shall accrue to the
United States and may be recovered in a civil action
brought by the Attorney General of the United States.
Each separate violation of such an order shall be a
separate offense, except that in a case of a violation
through continuing failure to obey or neglect to obey a
final order of the Commission, each day of continuance
of such failure or neglect shall be deemed a separate
offense. In such actions, the United States district
courts are empowered to grant mandatory injunctions
and such other and further equitable relief as they
deem appropriate in the enforcement of such final
orders of the Commission.
(m) Civil actions for recovery of penalties for knowing
violations of rules and cease and desist orders
respecting unfair or deceptive acts or practices;
jurisdiction; maximum amount of penalties;
continuing violations; de novo determinations;
compromise or settlement procedure

79a
(1)(A) The Commission may commence a civil action
to recover a civil penalty in a district court of the
United States against any person, partnership, or
corporation which violates any rule under this
subchapter respecting unfair or deceptive acts or
practices (other than an interpretive rule or a rule
violation of which the Commission has provided is not
an unfair or deceptive act or practice in violation of
subsection (a)(1)) with actual knowledge or knowledge
fairly implied on the basis of objective circumstances
that such act is unfair or deceptive and is prohibited
by such rule. In such action, such person, partnership,
or corporation shall be liable for a civil penalty of not
more than $10,000 for each violation.
(B) If the Commission determines in a proceeding
under subsection (b) that any act or practice is unfair
or deceptive, and issues a final cease and desist order,
other than a consent order, with respect to such act or
practice, then the Commission may commence a civil
action to obtain a civil penalty in a district court of the
United States against any person, partnership, or
corporation which engages in such act or practice-(1) after such cease and desist order becomes final
(whether or not such person, partnership, or
corporation was subject to such cease and desist
order), and
(2) with actual knowledge that such act or practice is
unfair or deceptive and is unlawful under subsection
(a)(1) of this section.
In such action, such person, partnership, or
corporation shall be liable for a civil penalty of not
more than $10,000 for each violation.
(C) In the case of a violation through continuing
failure to comply with a rule or with subsection (a)(1),
each day of continuance of such failure shall be

80a
treated as a separate violation, for purposes of
subparagraphs (A) and (B). In determining the
amount of such a civil penalty, the court shall take
into account the degree of culpability, any history of
prior such conduct, ability to pay, effect on ability to
continue to do business, and such other matters as
justice may require.
(2) If the cease and desist order establishing that the
act or practice is unfair or deceptive was not issued
against the defendant in a civil penalty action under
paragraph (1)(B) the issues of fact in such action
against such defendant shall be tried de novo. Upon
request of any party to such an action against such
defendant, the court shall also review the
determination of law made by the Commission in the
proceeding under subsection (b) that the act or
practice which was the subject of such proceeding
constituted an unfair or deceptive act or practice in
violation of subsection (a).
(3) The Commission may compromise or settle any
action for a civil penalty if such compromise or
settlement is accompanied by a public statement of its
reasons and is approved by the court.
(n) Standard of proof; public policy considerations
The Commission shall have no authority under this
section or section 57a of this title to declare unlawful
an act or practice on the grounds that such act or
practice is unfair unless the act or practice causes or
is likely to cause substantial injury to consumers
which is not reasonably avoidable by consumers
themselves and not outweighed by countervailing
benefits to consumers or to competition. In
determining whether an act or practice is unfair, the
Commission may consider established public policies
as evidence to be considered with all other evidence.

81a
Such public policy considerations may not serve as a
primary basis for such determination.

